         DEPARTMENT OF HEALTH &. HUMAN SERVICES                                  Office of Inspector General


                                                                                 Washington, D.C. 20201

                                                 JUL 2 5 2007



TO:                 Herb Kuhn
                    Acting Deputy Administrator
                    Centers for Medicare & Medicaid Services

FROM:               Daniel R. Levinson
                    Inspector General

SUBJECT:            Memorandum Report: "Louisiana Medicaid Payments and Services Related to
                    Hurricanes Katrina and Rita: Data Compendium," OEI-05-07-00300


This memorandum report is a data compendium of State-specific information on Medicaid
payments and services in Louisiana for its hurricane-related activities. It provides both
descriptive and comparative statistics for Louisiana Medicaid payments and services to
affected and nonaffected individuals for outpatient and other physician services (referred to as
medical services) and prescription drugs.

After Hurricanes Katrina and Rita struck, the Secretary (the Secretary) of the Department of
Health and Human Services (HHS) approved 32 hurricane-related demonstration projects.
A companion memorandum report, "Medicaid Payments and Services Related to Hurricanes
Katrina and Rita" (OEI-05-06-00140), provides an initial, aggregate-level analysis of medical
services and prescription drugs for eight States in the first two quarters of fiscal year
(FY) 2006. Of the eight States reviewed in the companion memorandum report, Louisiana
accounted for over 95 percent of evacuee expenditures and over 90 percent of evacuees who
received services.

Background

In August and September 2005, the Gulf States were struck by two significant hurricanes.
Responding to the need for immediate health care in the wake of these hurricanes, the
Secretary began granting Medicaid waiver and expenditure authorities, allowed under Section
1115 demonstration projects, I to ensure the delivery of health care services to evacuees and
affected individuals. In total, the Secretary approved hurricane-related demonstration projects
for 30 States, Washington, DC, and Puerto Rico (hereinafter referred to collectively as States).

Section 1115 demonstration projects have been used in the past following national disasters.
For example, after the September 11,2001, terrorist attacks, the State of New York requested
and received approval for a Medicaid Section 1115 demonstration project known as Disaster
Relief Medicaid. This demonstration project allowed New York to develop a program

I   Social Security Act, § Il15.
Page 2 – Herb Kuhn


responsive to the emergency situation by allowing self-attestation of income, on-the-spot
approval, and a temporary eligibility period.2

However, New York’s Disaster Relief Medicaid was not without vulnerabilities. A
December 2005 report prepared for the New York State Department of Health identified
patterns of suspect Medicaid utilization in Disaster Relief Medicaid as possible causes of
concern. Because the 32 hurricane-related demonstration projects, like the New York Disaster
Relief Medicaid program, waive measures meant to protect the Medicaid program from
potential fraud and abuse, the potential for similar suspect Medicaid utilization also exists.
This extensive, almost nationwide waiving of Medicaid requirements heightened concerns that
fraud or abuse may have occurred.

To address these concerns, the HHS Office of Inspector General (OIG) issued two
memorandum reports. The primary report, “Medicaid Payments and Services Related to
Hurricanes Katrina and Rita” (OEI-05-06-00140), describes Medicaid payments made to and
services provided for outpatient and other physician services (hereinafter referred to
collectively as medical services) as well as for prescription drugs by eight States that were
approved for hurricane-related demonstration projects.3 The report provides an initial,
aggregate-level analysis of data from the first two quarters of FY 2006, which represent the
first two full fiscal quarters after the hurricanes. It also provides basic comparisons of the
evacuee Medicaid population to the nonevacuee Medicaid population.

This companion report is a data compendium of State-specific information on Medicaid
payments and services in Louisiana for its hurricane-related activities. Of the eight States
reviewed, Louisiana accounted for over 95 percent of evacuee expenditures and over
90 percent of evacuees who received services.

Hurricane-Related Demonstration Projects and Activities
The hurricane-related demonstration projects were intended to assist States in providing
Medicaid services to evacuees. The Centers for Medicare & Medicaid Services (CMS) defined
an evacuee in the terms and conditions of the Section 1115 hurricane-related demonstration
projects as “an individual who is a resident of the emergency area affected by a National
Disaster as declared by the President . . . and has been displaced from his or her home by the
emergency, and is not a non-qualified alien. . . .”4 The Deficit Reduction Act of 2005


2
  Maria Calicchia, et al., Cornell University, School of Industrial and Labor Relations. “Disaster Relief Medicaid
Evaluation Project,” December 2005. Available online at
http://www.nyhealth.gov/health_care/medicaid/related/docs/drm_report.pdf. Accessed March 8, 2007.
3
  The States included in the eight-State report are those that were able to respond to our data request and received
at least $1 million in the initial appropriation of funds through the Deficit Reduction Act. These eight States
account for 99 percent of the initial appropriation of funds.
4
  Each approved 1115 demonstration project included Title XIX waivers, Medicaid costs not otherwise matchable
(expenditure authority), and special terms and conditions. These demonstration authorities were approved by
CMS between September 22, 2005, and March 26, 2006, and are on file with CMS.
Page 3 – Herb Kuhn


(DRA)5 used different terminology. It defined an affected individual as one who resided in a
county or parish declared to be an emergency area as a result of Katrina and who continued to
reside in the same State as the emergency area, and an evacuee as an affected individual who
was displaced to another State.

The DRA authorized the Secretary to pay the non-Federal share of certain health care-related
expenses to eligible States.6 Sections 6201(a)(1)(A) and (C) allow the Secretary to reimburse
States for the non-Federal share of medical assistance provided under an approved
hurricane-related demonstration project to both evacuees and affected individuals. In addition,
Section 6201(a)(3) allows for reimbursement of the non-Federal share for medical assistance
provided under existing State plans for certain counties or parishes.7 All 32 States that
received approval for hurricane-related demonstration projects were allocated funds pursuant
to either Section 6201(a)(1) or 6201(a)(3), or both.

In February 2006, Section 6201(e) of the DRA appropriated funds for the activities authorized
in Section 6201. In March 2006, CMS released $1.5 billion to States approved to implement
hurricane-related demonstration projects.8 Later in 2006, CMS obligated approximately $360
million in additional DRA funding to approved States.9 Overall, the DRA appropriated $2
billion in funds for these projects, to remain available until expended; the remainder is
expected to be dispersed in FY 2007.

Louisiana was approved for a hurricane-related demonstration project on November 10, 2005,
and funds were obligated under all Sections of the DRA. In the initial allocation of DRA
funds, Louisiana received almost $770 million. Although Louisiana developed a Disaster
Relief Medicaid program based on the waiver and expenditure authorities allowed under
Section 1115 demonstration projects, it did not ultimately submit claims for reimbursement
under the demonstration projects allowed in Section 6201(a)(1). Instead, Louisiana primarily
submitted claims for reimbursement under Section 6201(a)(3) of the DRA, which allows
reimbursement for services under existing State plans for specific counties or parishes.
Therefore, the individuals who received Medicaid services in Louisiana as a result of the
hurricanes were considered affected individuals, rather than evacuees, as they were eligible
under the existing State plan and resided in an affected parish. Hereinafter, any discussion of
payment refers to all submitted claims for Louisiana.




5
  Deficit Reduction Act of 2005, Pub. L. No. 109-171, § 6201(b). 

6
  Deficit Reduction Act of 2005, Pub. L. No. 109-171, § 6201. 

7
  Only Louisiana, Alabama, and Mississippi were eligible for reimbursement pursuant to Section 6201(a)(3). 

8
  HHS News Release. “HHS Releases First Round of Katrina Aid to 32 States To Help With Affected Individual 

Health Cost.” March 24, 2006. Available online at http://www.hhs.gov/news/press/2006pres/20060324.html. 

Accessed March 29, 2006. 

9
  HHS, CMS. “Fiscal Year 2008: Justification of Estimates for the Appropriation Committees.” 

Page 4 – Herb Kuhn


SCOPE AND METHODOLOGY

Scope
This data compendium focuses on the Medicaid payments and services associated with the
affected individuals who were deemed eligible for such payments and services because they
resided in an affected parish and received services under an existing State plan. It does not
determine whether any Medicaid beneficiaries were wrongly deemed eligible to receive
Medicaid or provide a medical record review of appropriateness of Medicaid claims. It also
does not review payments and services rendered using an uncompensated care pool. In
addition, the data are State-reported, administrative data. Therefore, the payments discussed in
this report represent the total payments made by the Medicaid program: the payments have not
been adjusted to represent rebates, appeals, or the Federal-State share. Lastly, this data
compendium does not examine claims related to Medicare or the State Children’s Health
Insurance Program.

Methodology
We analyzed Louisiana Medicaid eligibility and claims data to obtain descriptive information
regarding hurricane-related payments and services in Louisiana. We used data from
Louisiana’s Medicaid Management Information System (MMIS). MMIS is a State-level
system that contains claims data, provider enrollment data, and beneficiary eligibility
information.

This report analyzes eligibility and claims data for the first two full quarters of FY 2006
(October 1, 2005–March 31, 2006). This period represents the first two full quarters after the
hurricanes. Our analysis included only claims for individuals who were Medicaid eligible and
received a service during our 6-month study period. Further, we focused our analysis on
medical services and prescription drugs. Medical services include outpatient hospital services,
physician services, and other noninstitutional services. We did not review inpatient or long-
term care claims. A contractor assisted with the development of the programming language
used to analyze the data. The contractor analyzed medical services data and we analyzed
prescription drug data.

We provide descriptive and comparative statistics for Louisiana Medicaid payments and
services for affected and nonaffected individuals. For our analysis, the nonaffected individual
group is used to represent benchmark patterns of payments and utilization. In this report, both
beneficiaries (affected individuals and nonaffected individuals) and services10 are used as units
of analysis. For both medical services and prescription drugs, we provide descriptive
information for total and average payment overall, as well as by month, parish, eligibility
category, and service type. For service type, we relied on Louisiana State Medicaid definitions


10
  We refer to the service line items in the data as services. Most service line items equal one service; however,
there are some cases, such as time dependent codes or unit-dependent codes that may represent more than one
service. Examples of these are critical care or ambulance miles. We did not capture these differences.
Page 5 – Herb Kuhn


of Medicaid services. We also provide information on the top 30 procedures and top
100 affected individuals and providers by paid amount.

The tables throughout this compendium are sorted in descending order by difference in average
payment between affected individuals and nonaffected individuals, when a difference exists. If
no difference has been calculated, the tables are sorted in descending order by total payments.

RESULTS

Louisiana Medicaid Medical Services

Total Payments
Total payments by affected individual status are listed in Table 1. The average payment per
affected individual in Louisiana for medical services in the first two quarters of FY 2006 was
$645.14 compared to an average payment per nonaffected individual of $755.71. There were
more than twice as many affected individuals as nonaffected individuals.


       Table 1: Medical Services—Payments by Beneficiaries’ Individual Status

                                            Unique Beneficiary                                  Average Payment
         Individual Status                             Count             Total Payment            per Beneficiary
         Affected individuals                           667,089            $430,362,515                  $645.14
         Nonaffected individuals                        312,174            $235,911,588                  $755.71
           Total                                        979,263            $666,274,103                  $680.38
      Source: Contractor analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.


Monthly Payments
Table 2 on the following page displays the total and average payments per beneficiary by
month. Beneficiaries are counted only once per month if they have any services in that month
but they may receive services in multiple months. As the table demonstrates, in each month,
the average payment per affected individual was less than that per nonaffected individual.
 Page 6 – Herb Kuhn



Table 2: Medical Services—Total and Average Payment per Beneficiary by Month

                       Affected            Total           Average         Nonaffected                           Average
                    Individuals    Payments for        Payment per          Individuals   Total Payments     Payment per
                     Receiving          Affected           Affected          Receiving    for Nonaffected    Nonaffected
  Month               Services       Individuals         Individual           Services         Individuals     Individual
 October 2005          567,772       $72,121,399            $127.03             263,613      $40,421,300         $153.34
 November 2005         566,883       $69,743,739            $123.03             268,524      $38,409,921         $143.04
 December 2005         562,773       $68,450,953            $121.63             268,497      $36,993,792         $137.78
 January 2006          558,514       $79,203,340            $141.81             268,211      $42,785,497         $159.52
 February 2006         526,612       $67,698,049            $128.55             267,250      $37,336,467         $139.71
 March 2006            528,504       $73,145,035            $138.40             268,572      $39,964,612         $148.80
   Total              3,311,058    $430,362,515             $129.98           1,604,667     $235,911,589         $147.02
Source: Contractor analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.


 Payment and Beneficiaries by Parish
 Table 3 on the following page displays the total and average payments per beneficiary by
 parish. Of 64 parishes, 24 had greater average payments per affected individual than per
 nonaffected individual. Thirteen of the twenty-four parishes had average payment differences
 per affected individual at least $100 greater than nonaffected individuals. In Caldwell Parish,
 the average payment per affected individual was more than $1,000 greater than the average per
 nonaffected individual. However, there were only 25 affected individuals in this parish.
 Figures 1 and 2 on page 9 display the distribution of average payments by parish for affected
 and nonaffected individuals, respectively.

 The percentage of beneficiaries who received services in each parish is also outlined in 

 Table 3. Three parishes—Orleans, Jefferson, and East Baton Rouge—accounted for 

 40.9 percent of affected individuals. These three parishes accounted for less than 1 percent of
 the total nonaffected individual population. The average payments for affected individuals for
 these three parishes were much less than for nonaffected individuals. Figures 3 and 4 on
 page 10 provide graphical representation of the affected individual and nonaffected individual
 population distribution by parish, respectively.
               Page 7 – Herb Kuhn



Table 3: Medical Services—Total and Average Payment by Parish


                                                               Average                                         Total       Average
                    Affected   Percentage            Total    Payment     Nonaffected     Percentage      Payments        Payment
                 Individuals       of Total     Payments            per    Individuals       of Total            for            per    Difference
                  Receiving       Affected    for Affected     Affected     Receiving    Nonaffected    Nonaffected    Nonaffected    in Average
Parish             Services    Individuals     Individuals   Individual      Services     Individuals    Individuals    Individuals    Payments
Caldwell                 25     0.00004%          $52,811    $2,112.44          2,837           0.9%     $2,984,935      $1,052.14     $1,060.30
Allen                 6,115          0.9%      $4,170,941      $682.08            202           0.1%        $94,868        $469.64       $212.44
Caddo                   518          0.1%        $449,357      $867.48         58,791          18.8%    $39,859,719        $677.99       $189.49
Assumption            5,618          0.8%      $4,404,175      $783.94             41          0.01%        $24,480        $597.07       $186.86
Ascension            14,704          2.2%     $11,141,257      $757.70            197           0.1%       $116,606        $591.91       $165.79
Claiborne                26     0.00004%          $18,899      $726.88          4,168           1.3%     $2,377,295        $570.37       $156.53
Lafourche            19,114          2.9%     $15,582,423      $815.24            182           0.1%       $120,312        $661.05       $154.18
Vernon                8,050          1.2%      $5,631,442      $699.56            188           0.1%       $105,670        $562.07       $137.48
Acadia               15,781          2.4%     $11,086,493      $702.52            297           0.1%       $168,160        $566.20       $136.33
Pointe
Coupee                5,533          0.8%      $4,326,703      $781.98             66       0.0002%         $43,288        $655.88       $126.11
Iberia               19,385          2.9%     $15,192,495      $783.72            182           0.1%       $121,478        $667.46       $116.26
St. James             4,915          0.7%      $3,221,210      $655.38             38          0.01%        $20,923        $550.61       $104.77
St. John the
Baptist              11,270          1.7%      $6,616,864      $587.12            116          0.04%        $56,479        $486.89       $100.23
Terrebonne           24,480          3.7%     $18,775,036      $766.95            314           0.1%       $210,401        $670.07        $96.89
Livingston           19,182          2.9%     $13,600,178      $709.01            340           0.1%       $208,919        $614.47        $94.54
Jefferson
Davis                 7,554          1.1%      $5,218,872      $690.88            112          0.04%        $67,189        $599.90        $90.98
Washington           12,992          2.0%     $10,877,263      $837.23            263           0.1%       $196,795        $748.27        $88.96
West
Feliciana             1,825          0.3%      $1,504,248      $824.25             24          0.01%        $18,154        $756.42        $67.83
Sabine                5,068          0.8%      $2,762,532      $545.09            164           0.1%        $79,617        $485.47        $59.62
St. Mary             15,092          2.3%     $10,115,087      $670.23            174           0.1%       $109,252        $627.89        $42.34
West Baton
Rouge                 4,395          0.7%      $3,057,851      $695.76             51          0.02%        $33,690        $660.59        $35.16
East
Feliciana             4,235          0.6%      $3,367,789      $795.23             71          0.02%        $54,080        $761.69        $33.54
Beauregard            6,848          1.0%      $4,105,100      $599.46            142           0.1%        $80,662        $568.04        $31.42
Cameron               1,248          0.2%        $568,826      $455.79             18          0.01%         $8,130        $451.67         $4.11
St. Helena            2,810          0.4%      $2,379,399      $846.76             30          0.01%        $25,937        $864.57       -$17.79
St. Charles           8,712          1.3%      $4,736,009      $543.62             53          0.02%        $30,960        $584.15       -$40.53
La Salle                 38         0.01%         $35,307      $929.13          3,000           1.0%     $2,926,597        $975.53       -$46.41
Lafayette            35,035          5.3%     $28,275,768      $807.07            828           0.3%       $717,834        $866.95       -$59.88
Vermilion            11,233          1.7%      $7,438,042      $662.16            169           0.1%       $122,034        $722.09       -$59.94
Calcasieu            37,659          5.7%     $25,148,080      $667.78            600           0.2%       $441,094        $735.16       -$67.37
Iberville             8,651          1.3%      $6,303,376      $728.63             90       0.0003%         $71,876        $798.62       -$69.99
St. Landry              879          0.1%        $637,361      $725.10         26,152           8.4%    $19,455,090        $743.92       -$18.83
               Page 8 – Herb Kuhn



Table 3: Medical Services—Total and Average Payment by Parish - continued


                                                               Average                                          Total
                    Affected   Percentage            Total    Payment     Nonaffected      Percentage      Payments         Average
                 Individuals       of Total     Payments            per    Individuals        of Total            for   Payment per     Difference
                  Receiving       Affected    for Affected     Affected     Receiving     Nonaffected    Nonaffected    Nonaffected    in Average
Parish             Services    Individuals     Individuals   Individual      Services      Individuals    Individuals     Individual    Payments
De Soto                  70       0.0001%         $37,475      $535.36          5,975            1.9%      $3,633,967       $608.20       -$72.84
Madison                  55     0.00008%          $33,379      $606.89          4,674            1.5%      $3,225,901       $690.18       -$83.30
Tangipahoa           30,297          4.5%      $24,695,526     $815.11            463            0.2%       $419,745        $906.58       -$91.46
Union                    23     0.00003%          $12,432      $540.52          5,096            1.6%      $3,297,484       $647.07      -$106.54
Red River                17     0.00002%           $7,997      $470.41          2,577            0.8%      $1,615,981       $627.08      -$156.70
Rapides                 710          0.1%        $506,379      $713.21         33,009           10.6%     $28,885,429       $875.08      -$161.87
East Baton
Rouge                84,124         12.6%      $58,054,633     $690.11          1,103            0.4%       $941,354        $853.45      -$163.34
Grant                    70       0.0001%         $30,028      $428.97          4,894            1.6%      $2,928,768       $598.44      -$169.46
Jefferson            82,464         12.4%      $45,580,558     $552.73            783            0.3%       $575,711        $735.26      -$182.53
St. Martin           12,189          1.8%       $9,756,187     $800.41            157            0.1%       $154,690        $985.29      -$184.88
Plaquemines           4,707          0.7%       $2,109,059     $448.07             44           0.01%        $27,995        $636.25      -$188.18
St.
Tammany              29,591          4.4%      $17,951,166     $606.64            496            0.2%       $400,475        $807.41      -$200.77
Lincoln                 157         0.02%         $77,676      $494.75          8,632            2.8%      $6,016,845       $697.04      -$202.29
Morehouse                76         0.01%         $35,606      $468.50          9,235            3.0%      $6,451,216       $698.56      -$230.06
Bossier                 254         0.04%        $117,846      $463.96         17,217            5.5%     $11,963,139       $694.84      -$230.89
Webster                  51         0.01%         $23,050      $451.96          9,862            3.2%      $6,751,928       $684.64      -$232.68
East Carroll             34         0.01%         $22,463      $660.68          3,728            1.2%      $3,384,127       $907.76      -$247.09
Natchitoches            218         0.03%         $90,407      $414.71          9,710            3.1%      $6,648,640       $684.72      -$270.01
Avoyelles               329          0.1%        $158,991      $483.26         12,624            4.0%      $9,632,776       $763.05      -$279.80
Evangeline              311          0.1%        $133,651      $429.75         11,334            3.6%      $8,520,127       $751.73      -$321.99
Jackson                  41         0.01%         $16,449      $401.20          3,459            1.1%      $2,513,828       $726.75      -$325.56
Concordia               156         0.02%         $52,960      $339.49          5,922            1.9%      $3,994,791       $674.57      -$335.08
Bienville                18     0.00003%           $4,691      $260.61          4,018            1.3%      $2,403,015       $598.06      -$337.44
Franklin                 78         0.01%         $33,075      $424.04          6,796            2.2%      $5,245,346       $771.83      -$347.80
Winn                     49         0.01%         $11,361      $231.86          3,980            1.3%      $2,326,691       $584.60      -$352.73
Ouachita                510          0.1%        $213,982      $419.57         36,013           11.5%     $29,054,959       $806.79      -$387.22
West Carroll             50         0.01%         $29,483      $589.66          3,725            1.2%      $3,719,896       $998.63      -$408.97
Richland                 36         0.01%         $13,111      $364.19          6,439            2.1%      $5,214,364       $809.81      -$445.63
Tensas                   74         0.01%         $15,313      $206.93          2,079            0.7%      $1,414,215       $680.24      -$473.30
Orleans             106,385         16.0%      $34,705,868     $326.23            749            0.2%       $640,115        $854.63      -$528.40
Catahoula                38         0.01%         $14,425      $379.61          3,026            1.0%      $2,856,442       $943.97      -$564.35
St. Bernard          10,495          1.6%       $5,016,099     $477.95             78           0.02%        $99,104       $1,270.56     -$792.62
 Total              682,667        100.0%     $430,362,520     $630.41        317,797         100.0%     $235,911,588       $742.33      -$111.92
Source: Contractor analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.
Page 9 – Herb Kuhn



                Figure 1: Medical Services—Average Payment by Parish for
                Affected Individuals




                 Figure 2: Medical Services—Average Payment by Parish for
                 Nonaffected Individuals
Page 10 – Herb Kuhn


                Figure 3: Medical Services—Affected Individual Distribution by
                Parish




                 Figure 4: Medical Services—Nonaffected Individual Distribution
                 by Parish
             Page 11 – Herb Kuhn


             Payments by Eligibility Category
             Tables 4a and 4b summarize total and average payments by eligibility category. These tables
             differ by the unit of analysis. Table 4a lists the total average payments per beneficiary within
             each eligibility category. Because beneficiaries may have more than one reason for eligibility,
             beneficiaries may be counted in more than one eligibility category. Table 4b on the following
             page lists the total and average payments per service within each eligibility category.

             Table 4a shows that in 7 of the 20 eligibility categories, the average payment per affected
             individual was greater than that per nonaffected individual. Only three of the seven categories
             had a difference in average payments greater than $100. These three categories are
             Blind/disabled, medically needy; Other blind/disabled; and AFDC adult, medically needy.

             There are nine categories in Table 4b in which the average payment per service was greater for
             affected individuals. However, none of these nine categories had payment differences greater
             than $20.


Table 4a: Medical Services—Total and Average Payments per Beneficiary by Eligibility Category

                                                                      Average
                                         Affected           Total    Payment     Nonaffected            Total       Average
                                      Individuals      Payments            per    Individuals   Payments for    Payment per     Difference
Eligibility Category and               Receiving     for Affected     Affected     Receiving     Nonaffected    Nonaffected    in Average
Description                             Services      Individuals   Individual      Services      Individuals     Individual    Payments
22 - Blind/disabled, medically
needy (MN)                                 1,145      $3,130,517    $2,734.08            490      $1,116,492       $2,278.56      $455.52
42 - Other blind/disabled                 10,563     $39,057,517    $3,697.58          4,949     $17,004,045       $3,435.85      $261.73
25 - Aid to families with dependent
children (AFDC), adult, MN                 3,498      $3,981,218    $1,138.14          1,590      $1,567,831        $986.06       $152.08
17 - AFDC - unemployed father (U)
adult, cash                                5,294      $3,111,483      $587.74          1,984      $1,114,473        $561.73        $26.01
35 - Adult, poverty                       26,966     $32,553,727    $1,207.21         11,724     $13,871,652       $1,183.18       $24.03
45 - Other adult                           7,089      $2,688,750      $379.28          2,567        $924,870        $360.29        $18.99
24 - AFDC child, MN                          371        $137,595      $370.88            250         $88,575        $354.30        $16.58
31 - Aged, poverty                         9,880      $2,252,731      $228.01          6,321      $1,574,452        $249.08      ($21.07)
16 - AFDC-U child, cash                    4,300      $1,202,789      $279.72          2,024        $641,590        $316.99      ($37.27)
34 - Child, poverty                      347,982     $94,728,571      $272.22        152,069     $47,867,976        $314.78      ($42.56)
32 - Blind/disabled, poverty               7,238      $2,194,621      $303.21          3,047      $1,083,517        $355.60      ($52.39)
21 - Aged, MN                                531        $332,413      $626.01            351        $243,482        $693.68      ($67.67)
14 - AFDC child, cash                     68,054     $14,887,501      $218.76         34,484     $10,142,519        $294.12      ($75.36)
15 - AFDC adult, cash                     38,091     $20,126,210      $528.37         16,005      $9,704,732        $606.36      ($77.99)
44 - Other child                          43,309     $24,703,652      $570.40         20,620     $13,583,442        $658.75      ($88.35)
12 - Blind/disabled, cash                 88,986    $146,843,465    $1,650.19         44,728     $78,481,877       $1,754.65    ($104.46)
48 - Foster care child                     1,724      $1,093,319      $634.18          6,542      $5,298,365        $809.90     ($175.72)
11 - Aged, cash                           18,249     $16,065,157      $880.33         13,333     $14,097,285       $1,057.32    ($176.99)
41 - Other aged                           11,265     $18,050,860    $1,602.38          8,501     $15,563,798       $1,830.82    ($228.44)
             Page 12 – Herb Kuhn



Table 4a: Medical Services—Total and Average Payments per Beneficiary by Eligibility Category - continued

                                                                        Average                                              Average
                                         Affected             Total    Payment       Nonaffected                            Payment
                                      Individuals        Payments            per      Individuals     Total Payments              per    Difference in
Eligibility Category and               Receiving       for Affected     Affected       Receiving      for Nonaffected    Nonaffected          Average
Description                             Services        Individuals   Individual        Services           Individuals     Individual       Payments
3A - Individual covered under the
  Breast and Cervical Cancer
  Prevention Act of 2000, poverty            596         $3,220,419   $5,403.39                340         $1,940,616      $5,707.69        ($304.30)
   Total                                 695,131      $430,362,515      $619.11            331,919      $235,911,589         $710.75         ($91.64)
Source: Contractor analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.




  Table 4b: Medical Services—Total and Average Payments per Service by Eligible Category

                                                                          Average                                             Average
                                    Number of               Total     Payment Per      Number of              Total       Payment Per
                                      Affected      Payments for          Affected    Nonaffected     Payments for        Nonaffected       Difference
  Eligibility Category and          Individual           Affected       Individual      Individual     Nonaffected          Individual     in Average
  Description                        Services         Individuals          Service       Services       Individuals            Service      Payments
  22 - Blind/disabled, MN              34,160         $3,130,517            $91.64          15,396       $1,116,492             $72.52         $19.12
  3A - Individual covered under
  the Breast and Cervical
  Cancer Prevention Act of
  2000, poverty                        28,708         $3,220,419           $112.18          19,953       $1,940,616             $97.26         $14.92
  25 - AFDC adult, MN                  58,854         $3,981,218            $67.65          26,396       $1,567,831             $59.40          $8.25
  24 - AFDC child, MN                   3,271           $137,595            $42.07           2,501          $88,575             $35.42          $6.65
  42 - Other blind/disabled           278,044        $39,057,517           $140.47         126,039      $17,004,045            $134.91          $5.56
  12 - Blind/disabled, cash          2,033,783      $146,843,465            $72.20        1,159,508     $78,481,877             $67.69          $4.51
  17 - AFDC-U adult, cash              72,674         $3,111,483            $42.81          28,463       $1,114,473             $39.16          $3.65
  35 - Adult, poverty                 637,665        $32,553,727            $51.05         285,082      $13,871,652             $48.66          $2.39
  45 - Other adult                     74,829         $2,688,750            $35.93          27,197         $924,870             $34.01          $1.92
  31 - Aged, poverty                  162,192         $2,252,731            $13.89         109,634       $1,574,452             $14.36         ($0.47)
  15 - AFDC adult, cash               560,855        $20,126,210            $35.88         264,257       $9,704,732             $36.72         ($0.84)
  16 - AFDC-U child, cash              49,003         $1,202,789            $24.55          25,220         $641,590             $25.44         ($0.89)
  34 - Child, poverty                4,326,660       $94,728,571            $21.89        2,052,524     $47,867,976             $23.32         ($1.43)
  32 - Blind/disabled, poverty        115,298         $2,194,621            $19.03          51,151       $1,083,517             $21.18         ($2.15)
  14 - AFDC child, cash               714,916        $14,887,501            $20.82         424,647      $10,142,519             $23.88         ($3.06)
  44 - Other child                    808,843        $24,703,652            $30.54         391,864      $13,583,442             $34.66         ($4.12)
  11 - Aged, cash                     375,808        $16,065,157            $42.75         298,566      $14,097,285             $47.22         ($4.47)
  41 - Other aged                     252,787        $18,050,860            $71.41         203,248      $15,563,798             $76.58         ($5.17)
  21 - Aged, MN                         7,885           $332,413            $42.16           4,954         $243,482             $49.15         ($6.99)
  48 - Foster care child               23,832         $1,093,319            $45.88          97,670       $5,298,365             $54.25         ($8.37)
   Total                            10,620,067      $430,362,515            $40.52        5,614,270    $235,911,588             $42.02         ($1.50)
Source: Contractor analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.
   Page 13 – Herb Kuhn


   Payments by Service Type
   Tables 5a and 5b summarize total and average payment by service type, as defined by the
   Louisiana State Medicaid program. These tables differ by the unit of analysis. Table 5a lists
   the total average payments per beneficiary within each service type. Because beneficiaries
   may have more than one service, they may be counted in more than one service type. Table 5b
   on page 15 displays the total payment and average payment per service within each service
   type.

   In Table 5a, there are 14 service types in which the average payment per affected individual
   was greater than per nonaffected individual. Nine of the fourteen service types had average
   payments per affected individual more than $20 greater than that per nonaffected individual.
   Three service types were more than $100 greater than that for affected individuals: home
   health, mental health rehabilitation, and enhanced outpatient rehabilitation services.

   In Table 5b, there are 16 service types in which the average payment per service type for
   affected individuals was greater than for nonaffected individuals. In only four of these service
   types were average payments per service for affected individuals more than $20 greater than
   that for nonaffected individuals.

Table 5a: Medical Services—Total and Average Payments per Beneficiary by Service Type

                                                            Average                            Total        Average
                            Affected                       Payment      Nonaffected       Payments         Payment
                         Individuals   Total Payments            per     Individuals             for             per     Difference
                          Receiving       for Affected      Affected      Receiving     Nonaffected     Nonaffected     in Average
Service Type               Services        Individuals    Individual       Services      Individuals      Individual     Payments
Home health                   3,691         $6,126,143     $1,659.75           3,166      $4,629,988       $1,462.41        $197.34
Mental health
rehabilitation                2,221         $6,044,009     $2,721.30           2,268      $5,775,367       $2,546.46        $174.84
Enhanced outpatient
rehab services                  152            $28,573       $187.98             126          $9,951          $78.97        $109.01
Childnet (Early Steps)        1,293           $930,502       $719.65             574       $367,130          $639.60         $80.05
     1
Other                       109,048        $24,600,807       $225.60          86,028    $13,697,946          $159.23         $66.37
Psychological and
behavioral services             102            $14,810       $145.20               2            $215         $107.50         $37.70
Not applicable - 00           1,408         $1,285,486       $912.99             933       $825,152          $884.41         $28.58
School boards and
early intervention
centers                      15,621         $4,205,510       $269.22           8,494      $2,092,529         $246.35         $22.87
Expanded dental
services for pregnant
women                           889            $97,149       $109.28             367         $31,896          $86.91         $22.37
Anesthesia                   31,204         $5,572,660       $178.59          17,117      $2,748,933         $160.60         $17.99
Assistant surgeon            2,962            $499,791     $168.73              843        $132,124           $156.73         $12.00
  1
   Other includes durable medical equipment, emergency ambulance services, prenatal care clinic services, EPSDT case
  management, ventilator-assisted children’s program (VACP), nurse home visits, infants and toddlers, HIV, high-risk pregnant
  women, vision eyeglass program, personal care services (EPSDT), rehabilitation centers.
     Page 14 – Herb Kuhn



Table 5a: Medical Services—Total and Average Payments per Beneficiary by Service Type - continued

                                                                Average                          Total       Average
                             Affected                          Payment     Nonaffected      Payments        Payment
                          Individuals     Total Payments             per    Individuals            for            per    Difference
                           Receiving         for Affected       Affected     Receiving    Nonaffected    Nonaffected    in Average
Service Type                Services          Individuals     Individual      Services     Individuals     Individual    Payments
Professional
component                    124,563           $8,815,621        $70.77          73,213     $4,540,634        $62.02         $8.75
Early periodic
screening, diagnosis,
and treatment (EPSDT)        186,188          $21,711,786       $116.61          98,680    $11,260,743       $114.11         $2.50

Office of Public Health       40,955           $1,217,083        $29.72          32,742      $940,145         $28.71         $1.01

Dental                         1,334             $880,846       $660.30             914      $606,878        $663.98        ($3.68)
Deficit Reduction Act
(DEFRA), lab 62%,
ambulatory surgery             3,530             $861,133       $243.95           2,200      $550,236        $250.11        ($6.16)

Family planning clinics        4,248             $407,747        $95.99           3,408      $370,807        $108.80      ($12.81)
Rural health clinic
(RHC), Federally
Qualified Health Clinic
(FQHC),
CommunityCARE
enhanced                     159,484          $28,518,643       $178.82          94,910    $18,802,434       $198.11      ($19.29)

Not applicable - 28               30               $6,631       $221.03               7        $1,721        $245.86      ($24.83)

Full-service physician       637,511         $189,381,528       $297.06        287,561     $94,673,765       $329.23      ($32.17)

Mental health                 10,347           $3,490,647       $337.36           4,051     $1,583,913       $390.99      ($53.63)

Missing                       29,541          $13,559,997       $459.02          20,911    $11,702,835       $559.65     ($100.63)
Case management—
EPSDT                              3               $1,760       $586.50               2        $1,377        $688.50     ($102.00)
Personal care services
(long-term care)               3,140          $19,840,961     $6,318.78           2,245    $14,681,220     $6,539.52     ($220.74)
Waiver - children's
choice                           590           $2,209,453     $3,744.84             187      $870,661      $4,655.94     ($911.10)
Waiver - Elderly and
Disabled Adult (EDA)           1,646           $8,889,656     $5,400.76           1,140     $7,312,340     $6,414.33    ($1,013.57)

Supports waiver                3,347          $81,163,583    $24,249.65           1,244    $37,700,648    $30,305.99    ($6,056.34)
  Total                    1,375,048         $430,362,515       $312.98        743,333    $235,911,588       $317.37        ($4.39)
Source: Contractor analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.
  Page 15 – Herb Kuhn



Table 5b: Medical Services—Total and Average Payments per Service by Service Type

                                                          Average                                        Average
                            Number                       Payment                                        Payment
                                  of           Total           per    Number of             Total             Per
                            Affected      Payments        Affected   Nonaffected    Payments for     Nonaffected       Difference
                          Individual    for Affected    Individual     Individual    Nonaffected       Individual     in Average
Type of Service            Services      Individuals       Service      Services      Individuals         Service      Payments
Not applicable - 00           3,515      $1,285,486       $365.71           2,551        $825,152        $323.46          $42.25
Personal care services
(long-term care)             57,170     $19,840,961       $347.05          46,671     $14,681,220        $314.57          $32.48
Waiver - children's
choice                       12,269      $2,209,453       $180.08           5,613        $870,661        $155.12          $24.96
Assistant surgeon             3,351        $499,791       $149.15           1,033        $132,124        $127.90          $21.25
     1
Other                       551,593     $24,600,807        $44.60        454,760      $13,697,946          $30.12         $14.48
New opportunity
waiver (NOW)                162,536     $81,163,583       $499.36          77,340     $37,700,648        $487.47          $11.89
Enhanced outpatient
rehab services                  550         $28,573        $51.95             233          $9,951          $42.71          $9.24
Home health                  56,862      $6,126,143       $107.74          46,465      $4,629,988          $99.64          $8.10
Mental health
rehabilitation               57,323      $6,044,009       $105.44          56,794      $5,775,367        $101.69           $3.75
Professional
component                   403,165      $8,815,621        $21.87        240,122       $4,540,634          $18.91          $2.96
Case management -
EPSDT                            44          $1,760        $39.99              37          $1,377          $37.22          $2.77
Expanded dental
services for pregnant
women                         3,823         $97,149        $25.41           1,369         $31,896          $23.30          $2.11
Anesthesia                   50,578      $5,572,660       $110.18          25,218      $2,748,933        $109.01           $1.17
Childnet (Early Steps)       15,960        $930,502        $58.30           6,358        $367,130          $57.74          $0.56
EPSDT, EPSDT dental         749,892     $21,711,786        $28.95        392,801      $11,260,743          $28.67          $0.28
Office of Public Health      58,202      $1,217,083        $20.91          45,488        $940,145          $20.67          $0.24
Missing                      78,824     $13,559,997       $172.03          68,016     $11,702,835        $172.06          ($0.03)
School boards and
early intervention
centers                     265,376      $4,205,510        $15.85        131,544       $2,092,529          $15.91         ($0.06)
Full-service physician    7,566,755    $189,381,528        $25.03       3,687,240     $94,673,765          $25.68         ($0.65)
Psychological and
behavioral services             212         $14,810        $69.86               3            $215          $71.77         ($1.91)
Family planning clinics      14,348        $407,747        $28.42          12,029        $370,807          $30.83         ($2.41)
Dental                        3,433        $880,846       $256.58           2,341        $606,878        $259.24          ($2.66)
Mental health                36,767      $3,490,647        $94.94          16,185      $1,583,913          $97.86         ($2.92)
RHC, FQHC,
CommunityCARE
Enhanced                    402,953     $28,518,643        $70.77        244,517      $18,802,434          $76.90         ($6.13)
Not applicable - 28            183            $6,631      $36.23                39          $1,721          $44.13        ($7.90)
  1
   Other includes durable medical equipment, emergency ambulance services, prenatal care clinic services, EPSDT case
  management, VACP, nurse home visits, infants and toddlers, HIV, high-risk pregnant women, vision eyeglass program, personal
  care services (EPSDT), rehabilitation centers.
     Page 16 – Herb Kuhn



Table 5b: Medical Services—Total and Average Payments per Service by Service Type - continued


                                                            Average                                           Average
                                                           Payment                                           Payment
                          Number of             Total            per    Number of                 Total            Per
                            Affected       Payments         Affected   Nonaffected        Payments for    Nonaffected    Difference in
                          Individual     for Affected     Individual     Individual        Nonaffected      Individual        Average
Type of Service            Services       Individuals        Service      Services          Individuals        Service      Payments
Waiver - EDA                  60,257      $8,889,656         $147.53         47,033         $7,312,340        $155.47          ($7.94)
DEFRA, lab 62%,
ambulatory surgery              4,126       $861,133         $208.71          2,470           $550,236        $222.77        ($14.06)
 Total                    10,620,067    $430,362,515          $40.52      5,614,270       $235,911,588         $42.02          ($1.50)
Source: Contractor analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.


     Top 30 Procedure Codes Paid Amount for Affected Individual Medical Services
     Tables 6a and 6b on the following pages summarize total and average payment by the top 30
     procedures codes11 paid for affected individuals. Procedure codes are specific billing units that
     are generally grouped by service type. Tables 6a and 6b differ on the unit of analysis. Table
     6a lists the total and average payments per beneficiary within each procedure code. Because
     beneficiaries may have more than one procedure, they may be counted under more than one
     procedure code. Table 6b displays the total payment and average payment per service within
     each procedure code. The top 30 procedure codes in Tables 6a and 6b were responsible for 59
     percent of total payments for affected individuals in these two quarters.

     In Table 6a, there were 13 procedure codes in which the average payment per affected
     individual was greater than per nonaffected individual. Five of the thirteen procedure codes
     had average payments per affected individual more than $20 greater than that for nonaffected
     individuals, and just one was greater than $100. That procedure code was HR 2015, a type of
     community support service.

     There are 18 procedure codes in Table 6b in which the average payment per service was
     greater for affected individuals than for nonaffected individuals. Three of the eighteen
     procedure codes had average payments per affected individual service more than $20 greater
     than per nonaffected individual service.




     11
        Procedure codes can include Common Procedural Terminology (CPT) codes and Level II Healthcare Common
     Procedure Coding System (HCPCS) codes. CPT codes are a numeric coding system consisting of descriptive
     terms that are used primarily to describe medical services and procedures furnished by physicians and other health
     care practitioners. HCPCS codes describe products, supplies, and services not included in the CPT codes.
        Page 17 – Herb Kuhn


Table 6a: Medical Services—Total and Average Payments per Affected Individual by Top 30 Paid Procedures
for Affected Individuals
                                                                     Average                          Total
                                         Affected          Total    Payment     Nonaffected      Payments         Average
                                      Individuals     Payments            per    Individuals            for   Payment per     Difference
Procedure Code and Short               Receiving    for Affected     Affected     Receiving    Nonaffected    Nonaffected    in Average
Description                             Services     Individuals   Individual      Services     Individuals     Individual    Payments
H2015: Comprehensive
community support services per
15 minutes                                 2,168     $3,745,718    $1,727.73          2,192     $3,554,419       $1,621.54      $106.19
59515: Cesarean delivery                   4,336     $4,583,951    $1,057.18          2,043     $2,071,447       $1,013.92       $43.26
HR490: Revenue code -
ambulatory surgery - general              14,120     $7,283,149      $515.80          7,418     $3,571,547        $481.47        $34.33
92508: Speech/hearing therapy             12,102     $3,523,070      $291.11          6,336     $1,687,118        $266.27        $24.84
A0427: ALS1 - emergency                   19,139     $6,309,471      $329.67         10,567     $3,264,596        $308.94        $20.73
99232: Subsequent hospital care           21,449     $2,126,061       $99.12         14,220     $1,225,556         $86.19        $12.93
HR250: Revenue code -
pharmacy - general                        66,648     $7,581,851      $113.76         40,659     $4,160,346        $102.32        $11.44
HR450: Revenue code -
emergency room - general                 124,099    $15,215,949      $122.61         61,847     $6,980,235        $112.86         $9.75
99391: Preventive visit,
established (est), infant                 23,241     $2,113,212       $90.93         11,093       $912,550         $82.26         $8.67
HR301: Revenue code -
chemistry                                 49,957     $2,417,546       $48.39         19,635       $831,141         $42.33         $6.06
99213: Office/outpatient visit, est      255,618    $19,242,827       $75.28        115,833     $8,098,928         $69.92         $5.36
HR402: Revenue code -
ultrasound                                15,821     $2,858,258      $180.66          7,322     $1,287,582        $175.85         $4.81
99214: Office/outpatient visit, est       92,372     $5,778,467       $62.56         43,111     $2,627,547         $60.95         $1.61
CC001: Community care -
Primary Care Provider (PCP)
management fee                           514,085     $8,318,025       $16.18        239,837     $3,976,904         $16.58        ($0.40)
99212: Office/outpatient visit, est      117,983     $5,935,148       $50.31         60,458     $3,083,700         $51.01        ($0.70)
99283: Emergency dept visit               78,637     $3,349,515       $42.59         45,669     $1,998,766         $43.77        ($1.18)
01967: Anesth/analg, vaginal
delivery                                   7,496     $2,277,834      $303.87          2,844       $875,497        $307.84        ($3.97)
T1015: Clinic service                     30,566     $8,116,693      $265.55         32,202     $8,723,268        $270.89        ($5.34)
HR320: Revenue code -
radiology - general                       51,017     $4,718,248       $92.48         28,513     $2,877,092        $100.90        ($8.42)
HR300: Revenue code -
laboratory - general                      68,988     $2,604,058       $37.75         40,140     $2,284,521         $56.91      ($19.16)
59410: Obstetrical care                    7,239     $5,597,083      $773.18          3,122     $2,499,663        $800.66      ($27.48)
Z0637: Home and Community
Based Services (HCBS) waiver -
case management                            3,276     $2,827,178      $863.00          1,227     $1,110,625        $905.16      ($42.16)
HR352: Revenue code - body
scan                                       3,723     $2,466,488      $662.50          1,704     $1,225,383        $719.12      ($56.62)
Missing                                   29,541    $13,559,997      $459.02         20,911    $11,702,835        $559.65     ($100.63)
S5136: Adult companion care
per diem                                   1,041     $3,412,936    $3,278.52            604     $2,095,960       $3,470.13    ($191.61)
        Page 18 – Herb Kuhn


Table 6a: Medical Services—Total and Average Payments per Affected Individual by Top 30 Paid
Procedures for Affected Individuals - continued
                                                                            Average                             Total       Average
                                        Affected                Total      Payment       Nonaffected       Payments        Payment
                                     Individuals           Payments              per      Individuals             for            per    Difference
Procedure Code and Short              Receiving          for Affected       Affected       Receiving     Nonaffected    Nonaffected    in Average
Description                            Services           Individuals     Individual        Services      Individuals     Individual    Payments
T1019: Personal care service per
15 minutes                                    3,914      $22,194,275       $5,670.48            2,530     $15,590,388      $6,162.21    ($491.73)
S5135: Adult companion care per
15 minutes                                    1,438       $5,553,347       $3,861.85            1,085      $5,647,153      $5,204.75   ($1,342.90)
HR821: Revenue code -
hemodialysis - composite                       690        $2,522,345       $3,655.57             303       $1,568,259      $5,175.77   ($1,520.20)
S9124: Nursing care, in the
home; by registered nurse, per
hour                                           192        $3,883,949     $20,228.90              114       $2,542,538     $22,302.97   ($2,074.07)
S5125: Attendant care service
per 15 minutes                                3,488      $71,996,793     $20,641.28             1,331     $33,645,028     $25,278.01   ($4,636.73)
All other codes                        3,438,200        $178,249,076          $51.84        1,782,612     $94,190,996         $52.84       ($1.00)
  Total                                5,062,584        $430,362,515          $85.01        2,607,482   $235,911,588          $90.47       ($5.47)
Source: Contractor analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.




Table 6b: Medical Services—Total and Average Payments per Service by Top 30 Paid Procedures for
Affected Individuals
                                                                          Average                                           Average
                                                         Total           Payment                                Total      Payment
                                   Affected      Payments for                  per     Nonaffected      Payments for             per    Difference
Procedure Code and Short         Individual           Affected            Affected       Individual      Nonaffected    Nonaffected    in Average
Description                       Services         Individuals          Individual        Services        Individuals     Individual    Payments
S5125: Attendant care
service per 15 minutes             113,206            $71,996,793         $635.98           58,296       $33,645,028        $577.14        $58.84
T1019: Personal care ser
per 15 minutes                      67,720            $22,194,275         $327.74           52,145       $15,590,388        $298.98        $28.75

HR490: Revenue code –
ambulatory surgery - general        15,551             $7,283,149         $468.34            8,014        $3,571,547        $445.66        $22.68

A0427: ALS1 - emergency             27,178             $6,309,471         $232.15           15,088        $3,264,596        $216.37        $15.78
HR250: Revenue code -
pharmacy - general                 104,945             $7,581,851          $72.25           72,025        $4,160,346         $57.76        $14.48
H2015: Comprehensive
community support services,
per 15 minutes                      28,930             $3,745,718         $129.48           30,313        $3,554,419        $117.26        $12.22
HR821: Revenue Code -
hemodialysis - composite            17,038             $2,522,345         $148.04           11,431        $1,568,259        $137.19        $10.85
HR450: Revenue code -
emergency room - general           202,886            $15,215,949          $75.00          102,221        $6,980,235         $68.29         $6.71
99391: Preventive visit, est,
infant                              42,529             $2,113,212          $49.69           19,528          $912,550         $46.73         $2.96
99214: Office/outpatient
visit, est                         157,823             $5,778,467          $36.61           75,391        $2,627,547         $34.85         $1.76
           Page 19 – Herb Kuhn


Table 6b: Medical Services—Total and Average Payments per Service by Top 30 Paid Procedures for Affected
Individuals - continued
                                                                                                                        Average
                                                Total Payments         Average                    Total Payments       Payment
                                     Affected                for      Payment      Nonaffected                for            per    Difference
Procedure Code and Short           Individual          Affected    per Affected      Individual      Nonaffected    Nonaffected    in Average
Description                         Services        Individuals      Individual       Services        Individuals     Individual    Payments
99213: Office/outpatient visit,
est                                  613,797        $19,242,827          $31.35        272,949        $8,098,928         $29.67         $1.68
99232: Subsequent hospital
care                                 128,952         $2,126,061          $16.49         79,375        $1,225,556         $15.44         $1.05

T1015: Clinic service                 78,592         $8,116,693         $103.28         85,205        $8,723,268        $102.38         $0.90
01967: Anesth/analg, vaginal
delivery                               8,598         $2,277,834         $264.93          3,313          $875,497        $264.26         $0.67
HR301: Revenue code -
chemistry                            172,120         $2,417,546          $14.05         61,995          $831,141         $13.41         $0.64
99212: Office/outpatient visit,
est                                  212,947         $5,935,148          $27.87        112,533        $3,083,700         $27.40         $0.47

92508: Speech/hearing therapy        231,503         $3,523,070          $15.22        113,309        $1,687,118         $14.89         $0.33

99283: Emergency dept visit          101,916         $3,349,515          $32.87         61,023        $1,998,766         $32.75         $0.11
CC001: Community care- PCP
management fee                     2,772,789         $8,318,025           $3.00      1,325,652        $3,976,904          $3.00        ($0.00)

Missing                               78,824        $13,559,997         $172.03         68,016       $11,702,835        $172.06        ($0.03)
Z0637: HCBS waiver - case
management                            17,739         $2,827,178         $159.38          6,947        $1,110,625        $159.87        ($0.49)
HR300: Revenue code -
laboratory - general                 247,094         $2,604,058          $10.54        202,821        $2,284,521         $11.26        ($0.73)
S5135: Adult companioncare
per 15 minutes                        29,925         $5,553,347         $185.58         29,941        $5,647,153        $188.61        ($3.03)
S5136: Adult companioncare
per diem                              17,250         $3,412,936         $197.85         10,269        $2,095,960        $204.11        ($6.25)
HR320: Revenue code –
radiology - general                   79,510         $4,718,248          $59.34         43,831        $2,877,092         $65.64        ($6.30)
S9124: Nursing care, in the
home; by registered nurse, per
hour                                  17,776         $3,883,949         $218.49         11,144        $2,542,538        $228.15        ($9.66)
HR402: Revenue code -
ultrasound                            27,572         $2,858,258         $103.67         10,755        $1,287,582        $119.72      ($16.05)
HR352: Revenue code - body
scan                                   6,839         $2,466,488         $360.65          3,161        $1,225,383        $387.66      ($27.01)

59410: Obstetrical care                7,250         $5,597,083         $772.01          3,126        $2,499,663        $799.64      ($27.62)

59515: Cesarean delivery               6,107         $4,583,951         $750.61          2,453        $2,071,447        $844.45      ($93.85)

All other codes                    4,985,161       $178,249,076          $35.76      2,662,000       $94,190,996         $35.38         $0.37

 Total                            10,620,067       $430,362,515          $40.52      5,614,270      $235,911,588         $42.02        ($1.50)
Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.
Page 20 – Herb Kuhn


Top 100 Affected Individuals by Paid Amount
Table 7 lists the number of services and payments for the top 100 affected individuals by
allowed Medicaid payments. Total service payments for the top 100 affected individuals
ranged from $102,452 to $55,788, with a median payment of $60,494. Six of these affected
individuals had payments greater than $80,000 in allowed Medicaid payments during the first
two quarters of FY 2006, receiving from 71 to 214 services.

          Table 7: Medical Services—Top 100 Affected Individuals by Total
          Payments for Medical Services
          Rank Among Affected                                Total Payments for Affected
          Individuals                  Number of Services                    Individuals
           1                                         138                       $102,452
           2                                         141                        $97,301
           3                                         145                        $92,278
           4                                         203                        $87,677
           5                                          71                        $85,864
           6                                         214                        $85,345
           7                                         144                        $79,181
           8                                         222                        $79,027
           9                                         258                        $78,952
           10                                        189                        $78,157
           11                                        258                        $76,912
           12                                        289                        $76,826
           13                                        256                        $75,578
           14                                        244                        $72,128
           15                                        150                        $71,362
           16                                         90                        $70,362
           17                                        486                        $70,197
           18                                        330                        $69,037
           19                                        324                        $68,405
           20                                        358                        $68,375
           21                                        222                        $67,886
           22                                         51                        $67,503
           23                                         58                        $66,770
           24                                         89                        $66,302
           25                                         62                        $66,259
           26                                         60                        $66,152
           27                                        104                        $65,835
           28                                         43                        $65,337
           29                                        208                        $64,731
           30                                        106                        $64,544
           31                                        205                        $64,348
           32                                        547                        $63,889
           33                                         34                        $63,795
Page 21 – Herb Kuhn


         Table 7: Medical Services—Top 100 Affected Individuals by Total
         Payments for Medical Services - continued
         Rank Among Affected                               Total Payments for Affected
         Individuals                 Number of Services                    Individuals
          34                                       253                        $63,758
          35                                       150                        $63,708
          36                                       207                        $63,368
          37                                       295                        $62,810
          38                                       200                        $62,586
          39                                        70                        $62,258
          40                                       272                        $61,206
          41                                        94                        $61,132
          42                                       121                        $61,062
          43                                       277                        $61,033
          44                                       135                        $60,979
          45                                       328                        $60,956
          46                                        86                        $60,812
          47                                       110                        $60,631
          48                                       195                        $60,536
          49                                       368                        $60,500
          50                                        78                        $60,499
          51                                       158                        $60,489
          52                                       292                        $60,481
          53                                       233                        $60,416
          54                                       242                        $60,272
          55                                       119                        $60,000
          56                                       160                        $59,483
          57                                       248                        $59,284
          58                                       101                        $58,850
          59                                       181                        $58,840
          60                                       282                        $58,803
          61                                       283                        $58,704
          62                                       270                        $58,438
          63                                        57                        $58,425
          64                                       204                        $58,129
          65                                       418                        $57,916
          66                                        80                        $57,748
          67                                       153                        $57,746
          68                                        99                        $57,695
          69                                        71                        $57,623
          70                                       245                        $57,321
          71                                       217                        $57,252
          72                                       139                        $57,013
          73                                        49                        $56,976
Page 22 – Herb Kuhn


          Table 7: Medical Services—Top 100 Affected Individuals by Total
          Payments for Medical Services - continued


          Rank Among Affected                                                Total Payments for Affected
          Individuals                           Number of Services                           Individuals
            74                                                   184                                $56,947
            75                                                    87                                $56,927
            76                                                   251                                $56,771
            77                                                   255                                $56,573
            78                                                   207                                $56,423
            79                                                   242                                $56,414
            80                                                    79                                $56,262
            81                                                    71                                $56,232
            82                                                   102                                $56,215
            83                                                    91                                $56,121
            84                                                   119                                $56,082
            85                                                    34                                $56,058
            86                                                    75                                $55,984
            87                                                   422                                $55,971
            88                                                    67                                $55,954
            89                                                    64                                $55,940
            90                                                    87                                $55,919
            91                                                    68                                $55,910
            92                                                   115                                $55,863
            93                                                    54                                $55,855
            94                                                   111                                $55,854
            95                                                    93                                $55,853
            96                                                    54                                $55,843
            97                                                    91                                $55,832
            98                                                    72                                $55,827
            99                                                    59                                $55,791
            100                                                   53                                $55,788
          Source: Contractor analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.


Top 100 Service Providers by Medicaid Paid Amount for Medical Services
Table 8 on the following page lists the top 100 Louisiana providers, by Medicaid paid amount,
that provided services to affected individuals. There were 30 service providers with average
payments for affected individuals at least $100 greater per service than for nonaffected
individuals; 9 were at least $1,000 greater for affected individuals than for nonaffected
individuals. However, 20 of the 30 provided Medicaid services exclusively to affected
individuals. The other 10 providers predominately provided Medicaid services to affected
individuals.
  Page 23 – Herb Kuhn



Table 8: Medical Services—Top 100 Service Providers by Total Affected Individual Payments

                                            Average                                       Average
           Number of            Total   Payment per      Number of            Total   Payment per
             Affected   Payments for        Affected   Nonaffected    Payments for    Nonaffected     Difference
Provider   Individual        Affected     Individual    Individuals    Nonaffected      Individual   in Average
Number      Services      Individuals        Service      Services      Individuals        Service    Payments
0092713          573        $907,853       $1,584.39             0              $0          $0.00     $1,584.39
0098510          543        $769,552       $1,417.22             0              $0          $0.00     $1,417.22
0093587          864      $1,207,815       $1,397.93             0              $0          $0.00     $1,397.93
0043366          786      $1,012,294       $1,287.91             0              $0          $0.00     $1,287.91
0058073          582        $939,665       $1,614.55             3          $1,217        $405.67     $1,208.88
0091432          631        $726,027       $1,150.60             0              $0          $0.00     $1,150.60
0095702        4,188      $4,621,936       $1,103.61             0              $0          $0.00     $1,103.61
0066628          615        $648,512       $1,054.49             0              $0          $0.00     $1,054.49
0067969        1,923      $1,977,737       $1,028.46             0              $0          $0.00     $1,028.46
0069769          404        $595,698       $1,474.50             1            $560        $560.00       $914.50
0053940          778        $687,377        $883.52              0              $0          $0.00       $883.52
0053663        1,056        $756,863        $716.73              0              $0          $0.00       $716.73
0014893          824        $572,556        $694.85              0              $0          $0.00       $694.85
0058000          424        $698,014       $1,646.26            38         $37,569        $988.66       $657.60
0095031        5,875      $3,853,896        $655.98              0              $0          $0.00       $655.98
0095824        2,480      $1,568,346        $632.40              0              $0          $0.00       $632.40
0016979        1,006        $617,252        $613.57              0              $0          $0.00       $613.57
0016914        1,159        $573,969        $495.23              0              $0          $0.00       $495.23
0091068          917      $1,066,354       $1,162.87             4          $2,674        $668.50       $494.37
0091291        1,957      $1,702,486        $869.95             15          $5,985        $399.00       $470.95
0091571        1,595        $712,707        $446.84             23            $858         $37.30       $409.54
0092641        2,725        $863,700        $316.95              0              $0          $0.00       $316.95
0093516        1,380      $1,135,587        $822.89              7          $4,024        $574.86       $248.03
0040602        3,110        $746,613        $240.07              0              $0          $0.00       $240.07
0069799        1,146      $1,310,337       $1,143.40           220        $218,376        $992.62       $150.78
0067164        4,112        $596,171        $144.98              0              $0          $0.00       $144.98
0040276        2,191        $631,374        $288.17            129         $18,494        $143.36       $144.81
0068978         6,628       $752,488        $113.53              0              $0          $0.00       $113.53
0099693         7,036       $781,176        $111.03              0              $0          $0.00       $111.03
0091911         3,007     $1,331,201        $442.70             18          $6,017        $334.25       $108.45
0066392          641        $619,482        $966.43             14         $12,366        $833.29       $133.14
0095474          731        $941,021       $1,287.31           524        $635,881       $1,213.51       $73.80
0054428        5,391      $2,697,454        $500.36            139         $63,854        $459.38        $40.98
0043269        4,566        $578,093        $126.61            220         $21,368         $97.13        $29.48
0072025       19,284      $1,186,135         $61.51            511         $19,021         $37.22        $24.29
0091038         1,225     $1,164,708        $950.78            266        $247,052        $928.77        $22.01
0070024       19,655        $674,061         $34.29          2,552         $31,414         $12.31        $21.98
  Page 24 – Herb Kuhn


Table 8: Medical Services—Top 100 Service Providers by Total Affected Individual Payments -
continued

                                            Average                                       Average
           Number of            Total   Payment Per      Number of            Total   Payment Per
             Affected   Payments for        Affected   Nonaffected    Payments for    Nonaffected     Difference
Provider   Individual        Affected     Individual    Individuals    Nonaffected      Individual   in Average
Number      Services      Individuals        Service      Services      Individuals        Service    Payments
0072047       11,558        $890,797         $77.07             98          $5,550         $56.63        $20.44
0073404       13,578       $800,584          $58.96            252          $9,828         $39.00        $19.96
0076056       19,450      $1,068,955         $54.96            405         $16,557         $40.88        $14.08
0073278       39,371      $1,983,688         $50.38            597         $23,506         $39.37        $11.01
0073922       71,292      $4,511,974         $63.29            443         $23,533         $53.12        $10.17
0076767       19,621        $894,687         $45.60            748         $26,516         $35.45        $10.15
0072040       13,479        $957,466         $71.03            557         $34,169         $61.35         $9.68
0072018       10,916        $646,176         $59.20             53          $2,692         $50.79         $8.41
0072026       77,512      $3,957,865         $51.06          1,302         $56,780         $43.61         $7.45
0076773       15,332       $691,125          $45.08            409         $15,443         $37.76         $7.32
0073048       17,078       $789,159          $46.21            314         $12,237         $38.97         $7.24
0074561       11,549       $624,168          $54.05            535         $25,044         $46.81         $7.24
0072033       25,586       $889,433          $34.76            358         $10,069         $28.12         $6.64
0072024       10,789       $584,314          $54.16            501         $23,853         $47.61         $6.55
0073684       31,341      $1,159,937         $37.01            318          $9,711         $30.54         $6.47
0072027       44,149      $1,893,240         $42.88            606         $22,072         $36.42         $6.46
0011821      108,097      $8,437,090         $78.05         27,577      $2,017,734         $73.17         $4.88
0069191        2,337       $784,793         $335.81            292         $96,756        $331.36         $4.45
0039142       10,117       $629,981          $62.27            109          $6,379         $58.53         $3.74
0072010       20,028       $965,848          $48.22            352         $16,073         $45.66         $2.56
0090693       93,269      $1,426,941         $15.30         55,032        $717,088         $13.03         $2.27
0073518       31,117      $1,608,797         $51.70            463         $22,986         $49.65         $2.05
0076683       13,440       $584,396          $43.48            242         $10,094         $41.71         $1.77
0033577       23,336        $738,655         $31.65            546         $16,657         $30.51          $1.14
0041000       55,022        $806,986         $14.67         53,005        $752,081         $14.19          $0.48
0090113       82,948      $1,262,568         $15.22         28,140        $417,250         $14.83          $0.39
0072016       76,225      $2,940,408         $38.58          3,715        $142,864         $38.46          $0.12
0056505       83,809      $1,121,843         $13.39          1,368         $18,299         $13.38          $0.01
0054184        7,520       $750,018          $99.74            186         $18,600        $100.00        ($0.26)
0072046       31,818      $1,405,603         $44.18            767         $35,602         $46.42        ($2.24)
0040349        6,868      $1,402,648        $204.23          2,123        $445,197        $209.70        ($5.47)
0073448       71,110      $3,695,099         $51.96          2,378        $137,677         $57.90        ($5.94)
0070079       22,914      $1,124,422         $49.07            420         $23,105         $55.01        ($5.94)
0072031       16,408        $916,940         $55.88            213         $13,276         $62.33        ($6.45)
0069185        5,190        $649,339        $125.11            347         $45,745        $131.83        ($6.72)
0072048       72,910      $3,534,036         $48.47          1,516         $83,859         $55.32        ($6.85)
Page 25 – Herb Kuhn


Table 8: Medical Services—Top 100 Service Providers by Total Affected Individual Payments -
continued
                                                                                                 Average
             Number                              Average                             Total      Payment
                   of            Total       Payment Per         Number of      Payments              Per
             Affected    Payments for            Affected      Nonaffected             for   Nonaffected     Difference
Provider   Individual         Affected         Individual       Individuals   Nonaffected      Individual   in Average
Number      Services       Individuals            Service         Services     Individuals        Service    Payments
0094191        95,241        $698,641                $7.34            1,411        $20,332        $14.41        ($7.07)
0074682        19,488       $1,058,528             $54.32               173        $10,836        $62.64        ($8.32)
0033814        25,009       $1,048,892             $41.94               139         $7,077        $50.92        ($8.98)
0076379        22,361       $1,237,514             $55.34               480        $31,351        $65.31        ($9.97)
0091729         3,406        $890,276             $261.38                93        $25,368       $272.77      ($11.39)
0074665        46,667       $1,774,130             $38.02             3,739       $187,702        $50.20      ($12.18)
0072002        55,116       $2,372,728             $43.05               990        $54,767        $55.32      ($12.27)
0073009        26,692       $1,122,287             $42.05             1,468        $80,855        $55.08      ($13.03)
0072044        18,637        $932,037              $50.01             1,068        $68,074        $63.74      ($13.73)
0072043        25,116       $1,292,885             $51.48               520        $34,240        $65.85      ($14.37)
0094092        14,401        $576,975              $40.06               120         $7,053        $58.78      ($18.72)
0072042        55,583       $4,050,414             $72.87             6,412       $594,446        $92.71      ($19.84)
0073456        56,311       $2,509,818             $44.57               822        $53,520        $65.11      ($20.54)
0035402        10,076        $786,894              $78.10               139        $13,809        $99.35      ($21.25)
0074870        18,260        $784,470              $42.96               266        $17,607        $66.19      ($23.23)
0017187         1,020        $865,054             $848.09                20        $17,637       $881.83      ($33.74)
0092265         2,522       $2,031,238            $805.41               345       $290,374       $841.66      ($36.25)
0070235         1,394        $635,719             $456.04                40        $20,119       $502.97      ($46.93)
0053054         3,596       $1,172,835            $326.15               870       $324,673       $373.19      ($47.04)
0058107           405        $737,622           $1,821.29                20        $37,521     $1,876.06      ($54.77)
0073035        40,555       $1,942,455             $47.90             1,050       $114,511       $109.06      ($61.16)
0098837         1,959       $1,972,626          $1,006.96               327       $351,649     $1,075.38      ($68.42)
0054433         6,414        $899,872             $140.30               151        $32,774       $217.05      ($76.75)
0072041        20,998       $1,274,252             $60.68               585       $111,353       $190.35     ($129.67)
0096869         1,695        $857,066             $505.64                52        $34,503       $663.52     ($157.88)
0018833           824        $695,066             $843.53               173       $178,590     $1,032.31     ($188.78)
0098420           808        $851,806           $1,054.22                10        $12,516     $1,251.60     ($197.38)
Source: Contractor analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.
  Page 26 – Herb Kuhn


  Medicaid Prescription Drugs

  Total Payments
  Total payments by affected individual status are listed in Table 9. The average payment per
  affected individual for prescription drug services in the first two quarters of FY 2006 was
  $624.82 compared to an average payment of $720.68 per nonaffected individual for the same
  period. There were nearly twice as many affected individuals as nonaffected individuals.


                Table 9: Prescription Drugs—Payments by Beneficiaries’ Individual Status

                                                               Unique                          Average Payment
                  Individual Status                 Beneficiary Count       Total Payment        per Beneficiary
                  Affected individuals                        419,665         $262,214,395               $624.82
                  Nonaffected individuals                     213,001         $153,505,380               $720.68
                   Total                                      632,666         $415,719,775               $657.09
                 Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.


  Monthly Payments
  Table 10 displays the total and average payment per beneficiary by month. Beneficiaries are
  only counted once per month if they have any number of prescriptions in that month, but they
  may receive prescriptions in multiple months. As the table demonstrates, in each month, the
  average payment per affected individual was slightly less than per nonaffected individual.


Table 10: Prescription Drugs—Total and Average Payment per Beneficiary by Month

                           Affected                            Average      Nonaffected                                Average
                        Individuals      Total Payments       Payment        Individuals     Total Payments for    Payment per
                         Receiving          for Affected   per Affected       Receiving             Nonaffected    Nonaffected
Month                 Prescriptions          Individuals     Individual    Prescriptions             Individuals     Individual
October 2005                205,555          $51,698,771       $251.51             111,970           $30,931,593       $276.25
November 2005               206,499          $50,569,081       $244.89             112,400           $30,970,966       $275.54
December 2005               208,266          $52,997,918       $254.47             113,320           $32,361,163       $285.57
January 2006                186,002          $35,525,508       $191.00             95,320            $19,610,162       $205.73
February 2006               180,301          $33,299,951       $184.69             94,960            $18,650,108       $196.40
March 2006                  190,508          $38,123,163       $200.11             99,725            $20,981,385       $210.39
  Total                   1,177,131         $262,214,394       $222.76             627,695          $153,505,380       $244.55
Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.


  Payment and Beneficiaries by Parish
  Table 11 on the following page displays the total and average payment per beneficiary by
  parish. Of 64 parishes, 20 had greater average payments per affected individual than per
  nonaffected individual. Twelve of the twenty parishes had average payment differences of at
  least $100. However, the three parishes with average differences greater than $100 in
  payments had less than 50 affected individuals who received prescription drugs. Figures 5 and
  6 on page 30 display the distribution of average payments by parish for affected individuals
  and nonaffected individuals, respectively.
              Page 27 – Herb Kuhn


              The percentage of beneficiaries located in each parish is also outlined in Table 11. Three
              parishes—East Baton Rouge, Jefferson, and Orleans—accounted for one-third of the affected
              individuals and just 1 percent of the total nonaffected individual population. The average
              payments for affected individuals for these three parishes were less than for nonaffected
              individuals. In addition, Figures 7 and 8 on page 31 provide graphical representations of the
              affected individual and nonaffected individual population distribution by parish, respectively.

Table 11: Prescription Drugs—Total and Average Payment by Parish
                                                                Average                                          Total       Average
                     Affected   Percentage            Total    Payment      Nonaffected     Percentage      Payments        Payment     Difference
                  Individuals       of Total     Payments            per     Individuals       of Total            for            per           in
                   Receiving       Affected    for Affected     Affected      Receiving    Nonaffected    Nonaffected    Nonaffected      Average
Parish          Prescriptions   Individuals     Individuals   Individual   Prescriptions    Individuals    Individuals     Individual   Payments

Webster                   35         0.01%         $57,291    $1,636.89           6,643           3.1%     $4,670,417        $703.06      $933.83

Bienville                 10        0.002%         $11,876    $1,187.58           2,726           1.3%     $1,783,786        $654.36      $533.22

Plaquemines            3,153          0.8%      $1,956,080      $620.39              31          0.01%         $9,337        $301.18      $319.20
West
Feliciana              1,429          0.3%      $1,124,735      $787.08              17          0.01%         $9,121        $536.54      $250.54

Catahoula                 24         0.01%         $21,774      $907.27           2,205           1.0%     $1,463,566        $663.75      $243.52

Acadia                12,077          2.9%      $9,618,393      $796.42             255           0.1%       $146,468        $574.39      $222.04

Caddo                    335          0.1%        $285,365      $851.84          34,831          16.4%    $22,453,376        $644.64      $207.20
West Baton
Rouge                  3,232          0.8%      $2,290,415      $708.67              38           0.0%        $21,106        $555.42      $153.25

Allen                  4,441          1.1%      $3,100,533      $698.16             147           0.1%        $80,247        $545.90      $152.26

Vermilion              8,118          1.9%      $5,205,088      $641.18             147           0.1%        $72,481        $493.07      $148.11

St. James              3,410          0.8%      $1,346,151      $394.77              32          0.02%         $8,626        $269.55      $125.21

Sabine                 3,816          0.9%      $2,702,379      $708.17             122           0.1%        $72,329        $592.86      $115.31

Red River                 12        0.003%          $7,847      $653.89           1,811           0.9%     $1,013,448        $559.61       $94.29

Livingston            14,192          3.4%      $8,471,005      $596.89             277           0.1%       $140,520        $507.29       $89.59

St. Mary              10,924          2.6%      $6,566,531      $601.11             137           0.1%        $71,918        $524.95       $76.16

St. Helena             1,936          0.5%      $1,072,545      $554.00              24          0.01%        $11,654        $485.57       $68.43

Lafourche             13,486          3.2%      $7,981,949      $591.87             140           0.1%        $74,001        $528.58       $63.29
               Page 28 – Herb Kuhn



Table 11: Prescription Drugs—Total and Average Payment by Parish - continued
                                                                Average                                          Total       Average
                     Affected   Percentage            Total    Payment      Nonaffected     Percentage      Payments        Payment     Difference
                  Individuals       of Total     Payments            per     Individuals       of Total            for            per           in
                   Receiving       Affected    for Affected     Affected      Receiving    Nonaffected    Nonaffected    Nonaffected      Average
Parish          Prescriptions   Individuals     Individuals   Individual   Prescriptions    Individuals    Individuals     Individual   Payments

East Carroll              22         0.01%         $16,834      $765.19           2,704           1.3%     $1,918,555        $709.52       $55.66

Calcasieu             24,293          5.8%     $16,441,945      $676.82             455           0.2%       $290,443        $638.34       $38.48

Lafayette             22,928          5.5%     $16,054,996      $700.24             631           0.3%       $441,617        $699.87        $0.37

Lincoln                  104         0.02%         $67,791      $651.84           5,592           2.6%     $3,660,137        $654.53       ($2.69)

St. Bernard            5,845          1.4%      $2,938,283      $502.70              56           0.0%        $28,768        $513.72      ($11.02)

Iberville              6,510          1.6%      $4,000,219      $614.47              86           0.0%        $55,286        $642.86      ($28.38)
East Baton
Rouge                 53,108         12.7%     $33,311,354      $627.24             880           0.4%       $580,269        $659.40      ($32.16)

St. Charles            5,485          1.3%      $2,572,099      $468.93              44          0.02%        $22,230        $505.23      ($36.30)

Washington             8,967          2.1%      $7,488,870      $835.16             220           0.1%       $194,383        $883.56      ($48.40)

Morehouse                 54         0.01%         $40,616      $752.15           6,959           3.3%     $5,589,958        $803.27      ($51.12)

Rapides                  442          0.1%        $309,768      $700.83          21,973          10.3%    $16,542,701        $752.86      ($52.03)

Ascension             10,830          2.6%      $6,259,251      $577.95             157           0.1%        $99,937        $636.54      ($58.59)

Tensas                    46         0.01%         $22,230      $483.27           1,557           0.7%       $843,685        $541.87      ($58.60)

Madison                   34         0.01%         $17,144      $504.25           3,062           1.4%     $1,763,917        $576.07      ($71.82)
Jefferson
Davis                  5,989          1.4%      $4,823,773      $805.44             102          0.05%        $90,170        $884.02      ($78.58)

La Salle                  21         0.01%         $12,614      $600.68           2,264           1.1%     $1,538,787        $679.68      ($79.00)

De Soto                   43         0.01%         $24,126      $561.06           4,107           1.9%     $2,668,998        $649.87      ($88.81)

Concordia                 99         0.02%         $48,014      $484.99           4,021           1.9%     $2,324,444        $578.08      ($93.09)

Bossier                  137         0.03%         $72,324      $527.91          10,618           5.0%     $6,645,697        $625.89      ($97.98)

Union                     10        0.002%          $6,434      $643.44           3,799           1.8%     $2,821,927        $742.81      ($99.36)

Caldwell                  24         0.01%         $17,032      $709.66           2,133           1.0%     $1,733,565        $812.74     ($103.08)

Beauregard             4,803          1.1%      $3,154,408      $656.76              99          0.05%        $75,787        $765.52     ($108.77)

Vernon                 5,670          1.4%      $3,477,615      $613.34             148           0.1%       $107,488        $726.27     ($112.94)

St. Landry               562          0.1%        $405,476      $721.49          19,415           9.1%    $16,275,026        $838.27     ($116.78)

Avoyelles                210          0.1%        $120,500      $573.81           9,510           4.5%     $6,568,153        $690.66     ($116.85)

Tangipahoa            20,616          4.9%     $13,150,761      $637.89             366           0.2%       $279,827        $764.55     ($126.66)
               Page 29 – Herb Kuhn


Table 11: Prescription Drugs – Total and Average Payment by Parish - continued

                                                                Average                                            Total       Average
                     Affected   Percentage            Total    Payment      Nonaffected       Percentage      Payments        Payment     Difference
                  Individuals       of Total     Payments            per     Individuals         of Total            for            per           in
                   Receiving       Affected    for Affected     Affected      Receiving      Nonaffected    Nonaffected    Nonaffected      Average
Parish          Prescriptions   Individuals     Individuals   Individual   Prescriptions      Individuals    Individuals     Individual   Payments

Grant                     49         0.01%          $26,026      $531.14             3,363          1.6%      $2,217,753       $659.46     ($128.32)

Iberia                14,292          3.4%       $8,764,298     $613.23               159           0.1%       $117,956        $741.86     ($128.63)

Evangeline               211          0.1%        $149,023      $706.27              8,816          4.1%      $7,543,805       $855.69     ($149.43)

Jefferson             48,200         11.5%      $27,383,822     $568.13               616           0.3%       $455,117        $738.83     ($170.70)

Jackson                   24         0.01%          $13,478     $561.57              2,536          1.2%      $1,857,871       $732.60     ($171.03)

Ouachita                 314          0.1%        $160,618      $511.52             22,204         10.4%     $15,195,209       $684.35     ($172.82)

Winn                      26          0.0%          $12,474     $479.76              2,763          1.3%      $1,814,892       $656.86     ($177.10)

St. Martin             8,392          2.0%       $5,209,810      $620.81              126           0.1%       $102,197        $811.09     ($190.28)

Claiborne                 22         0.01%          $10,452      $475.10             3,000          1.4%      $2,165,270       $721.76     ($246.66)

Assumption             3,957          0.9%       $2,528,413      $638.97               35          0.02%        $31,981        $913.75     ($274.78)

Terrebonne            17,501          4.2%      $10,966,925     $626.65               259           0.1%       $233,852        $902.90     ($276.26)

West Carroll              36          0.0%          $18,216      $506.00             2,870          1.3%      $2,349,219       $818.54     ($312.54)
St. John
the Baptist            6,946          1.7%       $2,816,321      $405.46               92           0.0%        $66,890        $727.07     ($321.61)

Natchitoches             130         0.03%          $57,203      $440.03             7,011          3.3%      $5,395,283       $769.55     ($329.52)

Cameron                  817          0.2%        $403,721       $494.15               11          0.01%          $9,337       $848.78     ($354.63)

Franklin                  52          0.0%          $20,508      $394.39             5,214          2.4%      $3,919,878       $751.80     ($357.41)

Orleans               41,076          9.8%      $19,754,129      $480.92              551           0.3%       $471,537        $855.78     ($374.87)
Pointe
Coupee                 4,088          1.0%       $2,431,839      $594.87               45          0.02%        $45,995      $1,022.10     ($427.23)
East
Feliciana              3,155          0.8%       $2,206,080      $699.23               49          0.02%        $55,471      $1,132.05     ($432.82)
St.
Tammany               19,725          4.7%      $12,600,380      $638.80              416           0.2%       $448,304      $1,077.65     ($438.85)

Richland                  21         0.01%           $6,224      $296.36             4,759          2.2%      $3,743,406       $786.60     ($490.23)

Total                426,516        100.0%     $262,214,395      $614.78           215,436       100.0%     $153,505,380       $712.53      ($97.75)
Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.
Page 30 – Herb Kuhn


              Figure 5: Prescription Drugs—Average Payment by Parish for
              Affected Individuals




               Figure 6: Prescription Drugs—Average Payment by Parish for
               Nonaffected Individuals
Page 31 – Herb Kuhn


            Figure 7: Prescription Drugs—Affected Individual Distribution
            by Parish




            Figure 8: Prescription Drugs—Nonaffected Individual
            Distribution by Parish
           Page 32 – Herb Kuhn


           Payments by Eligibility Category
           Tables 12a and 12b summarize total and average payments by eligibility category. These
           tables differ by the unit of analysis. Table 12a lists the total average payments per
           beneficiary within each eligibility category. Because beneficiaries may have more than
           one reason for eligibility, they may be counted in more than one eligibility category.
           Table 12b on the following page displays the total and average payments per prescription
           within each eligibility category.

           Table 12a shows that in 5 of the 20 eligibility categories, the average payment per
           affected individual was greater than that per nonaffected individual, but only two
           categories had differences greater than $20. The two categories with average differences
           greater than $20 were “blind/disabled, poverty” and “other adult.”

           There are 12 categories in Table 12b in which the average payment per prescription was
           greater for affected individuals than for nonaffected individuals. However, none of these
           12 categories had payment differences greater than $10.


Table 12a: Prescription Drugs—Total and Average Payments per Beneficiary by Eligibility Category

                                                            Average                                        Average
                             Affected                      Payment      Nonaffected            Total      Payment
                          Individuals   Total Payments           per     Individuals   Payments for             per    Difference
 Eligibility Category      Receiving       for Affected     Affected      Receiving     Nonaffected    Nonaffected    in Average
 and Description        Prescriptions       Individuals   Individual   Prescriptions     Individuals     Individual    Payments
 32 - Blind/disabled,
 poverty                         794          $176,852      $222.74             371         $70,842        $190.95        $31.79
 45 - Other adult              4,526        $1,526,283      $337.23           1,357        $420,169        $309.63        $27.59
 35 - Adult, poverty          22,856        $5,003,049      $218.89           9,766      $2,020,829        $206.93        $11.97
 15 - AFDC adult,
 cash                         25,744       $12,054,811      $468.26          11,256      $5,169,316        $459.25         $9.01
 21 - Aged, MN                   584          $720,729    $1,234.13             426        $521,923      $1,225.17         $8.95
 31 - Aged, poverty            1,381          $128,919       $93.35           1,030        $101,181         $98.23        ($4.88)
 34 - Child, poverty         194,332       $59,080,882      $304.02          90,603     $28,077,356        $309.89        ($5.87)
 25 - AFDC adult, MN           2,658        $1,385,928      $521.42           1,247        $671,051        $538.13      ($16.72)
 14 - AFDC child,
 cash                         32,224        $8,682,603      $269.45          19,392      $6,069,698        $313.00      ($43.55)
 17 - AFDC-U adult,
 cash                          4,016        $2,342,923      $583.40           1,323        $834,507        $630.77      ($47.37)
 16 - AFDC-U child,
 cash                          2,672          $790,988      $296.03           1,252        $482,255        $385.19      ($89.16)
 12 - Blind/disabled,
 cash                         68,200      $106,245,937    $1,557.86          35,943     $59,534,811      $1,656.37      ($98.51)
 42 - Other
 blind/disabled                9,765       $14,477,035    $1,482.54           4,492      $7,139,928      $1,589.48     ($106.93)
 44 - Other child             28,584       $11,586,348      $405.34          13,853      $7,173,434        $517.83     ($112.48)
 11 - Aged, cash              19,190       $17,902,840      $932.93          13,264     $14,403,132      $1,085.88     ($152.96)
 41 - Other aged              12,072       $17,326,598    $1,435.27           9,019     $14,389,549      $1,595.47     ($160.20)
 48 - Foster care
 child                         1,407          $954,773      $678.59           5,556      $5,119,554        $921.45     ($242.86)
                   Page 33 – Herb Kuhn


Table 12a: Prescription Drugs—Total and Average Payments per Beneficiary by Eligibility Category
continued


                                                                             Average                                               Average
                                          Affected                          Payment        Nonaffected                            Payment
                                       Individuals       Total Payments           per       Individuals   Total Payments                per     Difference
Eligibility Category and                Receiving           for Affected     Affected        Receiving    for Nonaffected      Nonaffected     in Average
Description                          Prescriptions           Individuals   Individual     Prescriptions        Individuals       Individual     Payments

  24 - AFDC child, MN                          287               $54,401     $189.55               171            $91,826          $537.00       ($347.44)

  22 - Blind/disabled, MN                      641              $749,667    $1,169.53              274           $460,177         $1,679.48      ($509.95)
  3A - Individual covered under
  the Breast and Cervical Cancer
  Prevention Act of 2000, poverty              518            $1,022,819    $1,974.56              271           $753,834         $2,781.68      ($807.12)

   Total                                   432,451          $262,214,394     $606.34           220,866       $153,505,380          $695.02        ($88.68)
Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.




   Table 12b: Prescription Drugs—Total and Average Payments per Prescription by Eligibility Category

                                                                                                                                 Average
                                                                           Average                                              Payment
                                       Number of                          Payment          Number of              Total               per
                                         Affected    Total Payments    per Affected      Nonaffected      Payments for       Nonaffected       Difference
   Eligibility Category and            Individual       for Affected     Individual        Individual      Nonaffected         Individual     in Average
   Description                      Prescriptions        Individuals   Prescription     Prescriptions       Individuals      Prescription      Payments

   32 - Blind/disabled, poverty            5,100           $176,852         $34.68             2,633           $70,842            $26.91           $7.77

   45 - Other adult                       29,498         $1,526,283         $51.74             9,421          $420,169            $44.60           $7.14

   15 - AFDC adult, cash                 234,298        $12,054,811         $51.45           109,281        $5,169,316            $47.30           $4.15

   12 - Blind/disabled, cash           1,266,925       $106,245,937         $83.86           736,384       $59,534,811            $80.85           $3.01

   34 - Child, poverty                 1,025,081        $59,080,882         $57.64           509,892       $28,077,356            $55.07           $2.57

   21 - Aged, MN                          12,775           $720,729         $56.42             9,654          $521,923            $54.06           $2.35

   31 - Aged, poverty                      6,726           $128,919         $19.17             5,937          $101,181            $17.04           $2.12

   35 - Adult, poverty                   124,372         $5,003,049         $40.23            52,124        $2,020,829            $38.77           $1.46

   17 - AFDC-U adult, cash                41,340         $2,342,923         $56.67            15,069          $834,507            $55.38           $1.30

   25 - AFDC adult, MN                    24,345         $1,385,928         $56.93            12,036          $671,051            $55.75           $1.18

   42 - Other blind/disabled             185,327        $14,477,035         $78.12            92,421        $7,139,928            $77.25           $0.86

   11 - Aged, cash                       313,301        $17,902,840         $57.14           253,775       $14,403,132            $56.76           $0.39

   14 - AFDC child, cash                 157,053         $8,682,603         $55.28           104,814        $6,069,698            $57.91          ($2.62)

   41 - Other aged                       288,548        $17,326,598         $60.05           226,784       $14,389,549            $63.45          ($3.40)
                   Page 34 – Herb Kuhn



Table 12b: Prescription Drugs—Total and Average Payments per Prescription by Eligibility Category - continued

                                                                                                                        Average
                                                                         Average                                       Payment
                                     Number of               Total      Payment        Number of            Total            per
                                       Affected      Payments for    per Affected    Nonaffected    Payments for    Nonaffected    Difference in
Eligibility Category and             Individual           Affected     Individual      Individual    Nonaffected      Individual        Average
Description                       Prescriptions        Individuals   Prescription   Prescriptions     Individuals   Prescription      Payments

16 - AFDC-U Child, cash                  13,770           $790,988         $57.44          7,488        $482,255         $64.40          ($6.96)

48 - Foster care child                   10,537           $954,773         $90.61         51,785      $5,119,554         $98.86          ($8.25)

44 - Other child                        161,596        $11,586,348         $71.70         82,410      $7,173,434         $87.05        ($15.35)

22 - Blind/disabled, MN                    8,498          $749,667         $88.22          3,879        $460,177        $118.63        ($30.42)

24 - AFDC child, MN                        1,232           $54,401         $44.16            952         $91,826         $96.46        ($52.30)
3A - Individual covered under
      the Breast and Cervical
      Cancer Prevention Act of
      2000, poverty                        9,535        $1,022,819        $107.27          4,651        $753,834        $162.08        ($54.81)

  Total                               3,919,857      $262,214,394          $66.89      2,291,390    $153,505,380         $66.99          ($0.10)
Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.


                   Payment by Standard Therapeutic Classification
                   Tables 13a and 13b on the following pages summarize total and average payment by
                   standard therapeutic classification (STC).12 These tables differ by the unit of analysis.
                   Table 13a lists the total average payments per beneficiary within each STC. Because
                   beneficiaries may have more than one prescription, they may be counted in more than
                   one STC. Table 13b displays the total and average payments per prescription within each
                   STC.

                   In Table 13a, there are 39 of 92 STCs in which the average payment per affected
                   individual was greater than per nonaffected individual. Twelve of the STCs were greater
                   by more than $20 and one was greater by more than $100. The STC that had an average
                   payment per affected individual more than $100 greater than that of nonaffected
                   individuals was anabolics. Anabolics, also known as steroids, are synthetic substances
                   similar to the male sex hormone testosterone.

                   In 58 of 94 STCs in Table 13b, the average payment per prescription was greater for
                   affected individuals than for nonaffected individuals. Nine of the fifty-eight STCs were
                   greater by more than $20 and just one—antidotes—was greater by more than $100.
                   Antidotes either prevent a poison from working or reverse the effects of a poison.


                   12
                     The STC system groups National Drug Codes according to their most commonly intended use. Each
                   National Drug Code is assigned by the Food and Drug Administration and is a three-part universal
                   identifier that specifies the drug’s manufacturer, name, dosage form, strength, and package size.
                  Page 35 – Herb Kuhn



Table 13a: Prescription Drugs—Total and Average Payments per Beneficiary by STC

                                                              Average                                           Average
                                 Affected           Total    Payment      Nonaffected                          Payment
                              Individuals   Payments for           per     Individuals   Total Payments              per   Difference in
                               Receiving         Affected     Affected      Receiving    for Nonaffected    Nonaffected         Average
STC                         Prescriptions     Individuals   Individual   Prescriptions        Individuals     Individual      Payments

Anabolics                            161        $156,769      $973.73              76            $66,006        $868.51         $105.21

Antineoplastics                    2,637      $1,841,965      $698.51           1,650          $995,361         $603.25          $95.26

Other hormones                     3,414      $2,996,262      $877.64           1,685         $1,361,213        $807.84          $69.80

Bile therapy                         141         $55,333      $392.43              78            $25,211        $323.23          $69.21
General antibacterials
and antiseptics                      759         $89,224      $117.56           1,070            $55,149         $51.54          $66.01

Xanthine derivatives               1,194        $206,911      $173.29             808            $96,547        $119.49          $53.80

Anesthetic local topical           6,822        $726,961      $106.56           3,683          $235,882          $64.05          $42.51

Enzymes                            2,746        $732,637      $266.80           1,388          $327,584         $236.01          $30.79

Nonnarcotic analgesics            11,058      $1,657,279      $149.87           6,899          $824,522         $119.51          $30.36
Contraceptives,
nonsystemic                             8           $396       $49.56              13               $257         $19.79          $29.77

Anticonvulsants                   29,147     $13,870,910      $475.89          16,284         $7,396,042        $454.19          $21.70

Narcotic analgesics               95,047      $9,471,657       $99.65          55,059         $4,381,093         $79.57          $20.08

Antinauseants                     20,385      $2,181,278      $107.00          12,192         $1,068,193         $87.61          $19.39

Rauwolfias                            39          $3,117       $79.94              16               $990         $61.90          $18.04

Adrenergics                        2,467        $165,445       $67.06           2,135          $106,989          $50.11          $16.95

Hemorrhoidal preparations            326         $34,436      $105.63             218            $19,680         $90.28          $15.36

Glucocorticoids                   80,356      $6,981,556       $86.88          38,711         $2,920,528         $75.44          $11.44

Vasodilators peripheral               40          $3,554       $88.86              76             $5,955         $78.36          $10.50

Tetracyclines                     11,432        $452,929       $39.62           5,498          $160,387          $29.17          $10.45

Mineralocorticoids                   213         $19,542       $91.75             235            $19,153         $81.50          $10.25

Progesterone                       1,597         $59,943       $37.54             699            $19,996         $28.61           $8.93

All other dermatologicals         14,579      $2,742,410      $188.11           6,899         $1,239,888        $179.72           $8.39

Vitamin K                            152          $4,655       $30.63             183             $4,136         $22.60           $8.02

Antimalarials                      1,760        $145,174       $82.49           1,237            $92,367         $74.67           $7.81
                 Page 36 – Herb Kuhn



 Table 13a: Prescription Drugs—Total and Average Payments per Beneficiary by STC - continued


                                                              Average                                           Average
                                 Affected           Total    Payment      Nonaffected                          Payment
                              Individuals   Payments for           per     Individuals   Total Payments              per    Difference
                               Receiving         Affected     Affected      Receiving    for Nonaffected    Nonaffected    in Average
STC                         Prescriptions     Individuals   Individual   Prescriptions        Individuals     Individual    Payments
 Electrolytes and
 miscellaneous nutrients          15,853      $1,393,967       $87.93          12,052          $973,379          $80.76         $7.17

 Antidotes                           157        $380,969    $2,426.56              60          $145,193       $2,419.89         $6.67

 CNS stimulants                   15,454      $5,293,673      $342.54           6,642         $2,234,860        $336.47         $6.07

 B complex with vitamin C            113          $4,201       $37.18              47             $1,500         $31.94         $5.25

 Antiparasitics                   16,918        $908,866       $53.72           8,226          $416,210          $50.60         $3.12

 Other antibiotics                37,326      $2,643,595       $70.82          17,424         $1,186,975         $68.12         $2.70

 Multivitamins                    29,095      $1,124,873       $38.66          15,378          $558,585          $36.32         $2.34
 Cough preparations/
 expectorants                     19,982        $500,719       $25.06          15,993          $372,240          $23.28         $1.78

 Antidiarrheals                    4,495         $80,330       $17.87           2,680            $43,491         $16.23         $1.64

 Emollients/protectives            1,257         $71,475       $56.86             549            $30,558         $55.66         $1.20

 Oxytocics                           670          $9,891       $14.76             159             $2,178         $13.70         $1.06

 Folic acid preparations           3,890        $109,320       $28.10           2,380            $64,386         $27.05         $1.05

 Cephalosporins                   77,005      $6,740,462       $87.53          41,875         $3,642,306         $86.98         $0.55

 Thyroid preparations             10,063        $467,029       $46.41           6,023          $278,173          $46.19         $0.23

 Sulfonamides                     36,283        $618,001       $17.03          16,561          $281,400          $16.99         $0.04

 Iodine therapy                        24           $510       $21.29               2                $43         $21.82        ($0.53)
 Cold and cough
 preparations                      9,560        $239,841       $25.09           6,371          $163,469          $25.66        ($0.57)

 Erythromycins                    79,077      $4,695,801       $59.38          43,874         $2,632,572         $60.00        ($0.62)

 Digitalis preparations            4,164        $126,643       $30.41           3,077            $95,521         $31.04        ($0.63)

 Sedative barbiturate              2,448        $102,322       $41.80           1,788            $76,006         $42.51        ($0.71)

 Muscle relaxants                 23,470      $2,417,410      $103.00          10,918         $1,133,024        $103.78        ($0.78)

 Systemic contraceptives          23,335      $2,747,237      $117.73          10,645         $1,265,663        $118.90        ($1.17)

 Vasodilators coronary             7,299        $589,123       $80.71           4,972          $408,720          $82.20        ($1.49)
 Topical nasal and
 otic preparations                55,288      $5,170,067       $93.51          27,846         $2,654,272         $95.32        ($1.81)

 Penicillins                     117,401      $4,536,108       $38.64          56,923         $2,315,780         $40.68        ($2.04)

 Fungicides                       49,975      $3,311,212       $66.26          27,448         $1,880,136         $68.50        ($2.24)
                  Page 37 – Herb Kuhn



 Table 13a: Prescription Drugs—Total and Average Payments per Beneficiary by STC - continued


                                                               Average                                           Average
                                  Affected           Total    Payment      Nonaffected                          Payment
                               Individuals   Payments for           per     Individuals   Total Payments              per    Difference
                                Receiving         Affected     Affected      Receiving    for Nonaffected    Nonaffected    in Average
STC                          Prescriptions     Individuals   Individual   Prescriptions        Individuals     Individual    Payments

 Antihistamines                   103,407      $6,332,833       $61.24          61,557         $3,909,991         $63.52        ($2.28)

 Water-soluble vitamins             4,927        $307,214       $62.35           3,280          $214,308          $65.34        ($2.98)

 Diuretics                         30,595        $925,705       $30.26          19,074          $635,099          $33.30        ($3.04)
 Antispasmodic and
 anticholinergic agents            13,072      $1,554,991      $118.96           8,140          $993,784         $122.09        ($3.13)

 Laxatives                         10,475        $535,944       $51.16           6,212          $337,838          $54.38        ($3.22)

 Vaginal cleansers                      60         $1,887       $31.46              48             $1,671         $34.83        ($3.37)

 Medical supplies                  14,051        $649,832       $46.25           6,781          $339,327          $50.04        ($3.79)

 Estrogens                          6,151        $659,117      $107.16           3,565          $395,705         $111.00        ($3.84)

 Urinary antibacterials            14,200      $1,162,672       $81.88           8,853          $760,152          $85.86        ($3.99)

 Antithyroid preparations             448         $34,591       $77.21             247            $20,078         $81.29        ($4.07)

 Parasympathetic agents             4,412      $1,714,436      $388.58           3,553         $1,395,377        $392.73        ($4.15)

 Aldosterone antagonists            2,390        $146,190       $61.17           1,263            $82,947         $65.67        ($4.51)

 Trimethoprim                           99         $5,366       $54.21             110             $6,584         $59.86        ($5.65)

 Antiparkinson                      5,323        $654,760      $123.01           3,360          $435,737         $129.68        ($6.68)

 Miscellaneous                    101,907     $14,302,285      $140.35          59,778         $8,834,871        $147.79        ($7.45)

 Androgens                            224         $63,009      $281.29              86            $24,912        $289.68        ($8.39)

 Ophthalmic preparations           32,431      $2,015,558       $62.15          15,533         $1,106,547         $71.24        ($9.09)

 Other hypotensives                47,368      $7,305,240      $154.22          27,618         $4,520,466        $163.68        ($9.46)

 Fat-soluble vitamins                 397         $53,528      $134.83             226            $33,106        $146.49      ($11.66)

 Amphetamine preparations          13,707      $5,095,207      $371.72           5,001         $1,917,625        $383.45      ($11.73)

 Antiarthritics                    65,528      $4,635,871       $70.75          38,227         $3,214,408         $84.09      ($13.34)

 Sedative nonbarbiturate           13,635      $2,355,454      $172.75           7,073         $1,319,026        $186.49      ($13.74)

 Lipotropics                       25,445      $7,912,658      $310.97          13,959         $4,538,132        $325.10      ($14.13)

 Tuberculosis preparations          1,334         $68,800       $51.57             411            $27,622         $67.21      ($15.63)
 Psychostimulants-
 antidepressants                   52,039     $14,949,970      $287.28          29,324         $8,925,752        $304.38      ($17.10)

 Bronchial dilators                84,529     $15,086,752      $178.48          43,863         $8,620,328        $196.53      ($18.05)
                Page 38 – Herb Kuhn



Table 13a: Prescription Drugs—Total and Average Payments per Beneficiary by STC - continued


                                                                   Average                                            Average
                                    Affected            Total     Payment       Nonaffected                          Payment
                                 Individuals    Payments for            per      Individuals   Total Payments              per    Difference
                                  Receiving          Affected      Affected       Receiving    for Nonaffected    Nonaffected    in Average
STC                            Prescriptions      Individuals    Individual    Prescriptions        Individuals     Individual    Payments

  Anticoagulants                      13,683       $4,185,715      $305.91            8,925         $2,905,031        $325.49      ($19.59)

  Diabetic therapy                    24,597       $8,593,287      $349.36           13,506         $5,012,283        $371.12      ($21.75)

  Diagnostics                          7,000       $1,544,604      $220.66            3,513          $854,020         $243.10      ($22.45)
  Antiulcer preparations/
  gastrointestinal
  preparations                        42,865      $13,004,284      $303.38           28,343         $9,248,873        $326.32      ($22.94)
  Other cardiovascular
  preparations                        37,876       $5,451,759      $143.94           22,507         $3,867,618        $171.84      ($27.90)

  Ataractics-tranquilizers            41,314      $21,923,521      $530.66           21,576       $12,260,774         $568.26      ($37.60)
  All other antiobesity
  preparations                         1,173         $370,332      $315.71              602          $214,875         $356.94      ($41.22)

  Other                               14,783       $2,800,435      $189.44            9,404         $2,212,914        $235.32      ($45.88)

  Cholesterol reducers                   654          $75,559      $115.53              378            $62,253        $164.69      ($49.16)

  Streptomycins                          429         $465,778    $1,085.73              216          $248,213       $1,149.14      ($63.41)
  Hematinics and
  blood cell stimulators              20,206       $3,558,974      $176.13           11,148         $2,954,834        $265.06      ($88.92)

  Protein lysates                         89         $282,430    $3,173.37               75          $258,090       $3,441.20     ($267.83)

  Hemostatics                             20           $9,886      $494.33                9             $6,982        $775.87     ($281.54)

  Antivirals                          12,597      $22,044,737    $1,750.00            7,109       $15,625,395       $2,197.97     ($447.97)

  Corticotropins                           4           $9,241    $2,310.45                3            $14,115      $4,705.16    ($2,394.71)

  Biologicals                            180         $479,763    $2,665.35              126          $867,902       $6,888.11    ($4,222.76)
Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.
                   Page 39 – Herb Kuhn



Table 13b: Prescription Drugs—Total and Average Payments per Prescription by STC
                                                                                                                      Average
                                                                       Average                                       Payment
                                     Number of             Total      Payment        Number of            Total            per
                                       Affected    Payments for    per Affected    Nonaffected    Payments for    Nonaffected     Difference
                                     Individual         Affected     Individual      Individual    Nonaffected      Individual   in Average
STC                               Prescriptions      Individuals   Prescription   Prescriptions     Individuals   Prescription    Payments

 Antidotes                                 1,000       $380,969        $380.97             596        $145,193        $243.61       $137.36

 Anabolics                                  357        $156,769        $439.13             188         $66,006        $351.10        $88.03

 Other hormones                            7,995     $2,996,262        $374.77           4,132      $1,361,213        $329.43        $45.33
 General antibacterials and
 antiseptics                               1,132        $89,224         $78.82           1,636         $55,149         $33.71        $45.11

 Coal tar                                     4            $169         $42.34               0           $0.00          $0.00        $42.34

 Anesthetic local topical                  9,354       $726,961         $77.72           4,723        $235,882         $49.94        $27.77

 Bile therapy                               369         $55,333        $149.95             204         $25,211        $123.59        $26.37

 Contraceptives, nonsystemic                 10            $396         $39.65              17            $257         $15.14        $24.51

 Antineoplastics                           7,652     $1,841,965        $240.72           4,550        $995,361        $218.76        $21.96

 Xanthine derivatives                      3,296       $206,911         $62.78           2,228         $96,547         $43.33        $19.44

 Antinauseants                            31,215     $2,181,278         $69.88          20,293      $1,068,193         $52.64        $17.24

 Hemorrhoidal preparations                  427         $34,436         $80.65             310         $19,680         $63.48        $17.16

 Adrenergics                               2,900       $165,445         $57.05           2,594        $106,989         $41.25        $15.80

 Anesthetics general inject                   1             $13         $13.52               0           $0.00          $0.00        $13.52

Nonnarcotic analgesics                    21,653     $1,657,279         $76.54          13,065        $824,522         $63.11        $13.43

 Enzymes                                   6,409       $732,637        $114.31           3,178        $327,584        $103.08        $11.23

 Anticonvulsants                         126,077    $13,870,910        $110.02          73,049      $7,396,042        $101.25         $8.77

 All other dermatologicals                21,061     $2,742,410        $130.21          10,175      $1,239,888        $121.86         $8.36

 Tetracyclines                            14,975       $452,929         $30.25           7,123        $160,387         $22.52         $7.73

 Progesterone                              2,383        $59,943         $25.15           1,127         $19,996         $17.74         $7.41

 Glucocorticoids                         138,595     $6,981,556         $50.37          67,701      $2,920,528         $43.14         $7.24

 Narcotic analgesics                     245,017     $9,471,657         $38.66         139,127      $4,381,093         $31.49         $7.17

 Vasodilators peripheral                     98          $3,554         $36.27             200          $5,955         $29.78         $6.49

 Emollients protectives                    1,639        $71,475         $43.61             768         $30,558         $39.79         $3.82

 Antimalarials                             4,169       $145,174         $34.82           2,976         $92,367         $31.04         $3.78
 Electrolytes and miscellaneous
 nutrients                                44,561     $1,393,967         $31.28          35,081        $973,379         $27.75         $3.54
                 Page 40 – Herb Kuhn



Table 13b: Prescription Drugs—Total and Average Payments per Prescription by STC - continued
                                                                                                                         Average
                                                                          Average                                       Payment
                                         Number of            Total      Payment        Number of            Total            per
                                           Affected   Payments for    per Affected    Nonaffected    Payments for    Nonaffected     Difference
                                         Individual        Affected     Individual      Individual    Nonaffected      Individual   in Average
STC                                   Prescriptions     Individuals   Prescription   Prescriptions     Individuals   Prescription    Payments

Multivitamins                               44,409      $1,124,873         $25.33          25,500        $558,585         $21.91         $3.42

Rauwolfias                                     130          $3,117         $23.98              48            $990         $20.63         $3.35

Vitamin K                                      262          $4,655         $17.77             284          $4,136         $14.57         $3.20

Other                                       60,333      $2,800,435         $46.42          51,045      $2,212,914         $43.35         $3.06

Sedative nonbarbiturate                     34,638      $2,355,454         $68.00          20,304      $1,319,026         $64.96         $3.04

Mineralocorticoids                             626         $19,542         $31.22             676         $19,153         $28.33         $2.89

CNS stimulants                              55,733      $5,293,673         $94.98          24,208      $2,234,860         $92.32         $2.66

Amphetamine preparations                    48,795      $5,095,207        $104.42          18,844      $1,917,625        $101.76         $2.66

Antithyroid preparations                     1,110         $34,591         $31.16             704         $20,078         $28.52         $2.64

Other antibiotics                           46,977      $2,643,595         $56.27          22,096      $1,186,975         $53.72         $2.56

Antiparasitics                              20,595        $908,866         $44.13           9,883        $416,210         $42.11         $2.02

Cough preparations/expectorants             25,530        $500,719         $19.61          20,820        $372,240         $17.88         $1.73

Erythromycins                              100,929      $4,695,801         $46.53          58,729      $2,632,572         $44.83         $1.70

Parasympathetic agents                      11,826      $1,714,436        $144.97           9,739      $1,395,377        $143.28         $1.69

Antidiarrheals                               5,968         $80,330         $13.46           3,660         $43,491         $11.88         $1.58

Topical nasal and otic preparations         81,152      $5,170,067         $63.71          42,715      $2,654,272         $62.14         $1.57

Miscellaneous                              176,923     $14,302,285         $80.84         111,261      $8,834,871         $79.41         $1.43

Bronchial dilators                         214,965     $15,086,752         $70.18         125,052      $8,620,328         $68.93         $1.25

Cephalosporins                             109,143      $6,740,462         $61.76          60,123      $3,642,306         $60.58         $1.18

Water-soluble vitamins                      14,603        $307,214         $21.04          10,786        $214,308         $19.87         $1.17

Antihistamines                             192,196      $6,332,833         $32.95         122,528      $3,909,991         $31.91         $1.04

Vasodilators coronary                       19,174        $589,123         $30.73          13,682        $408,720         $29.87         $0.85

Medical supplies                            25,322        $649,832         $25.66          13,633        $339,327         $24.89         $0.77

B complex with vitamin C                       369          $4,201         $11.39             139          $1,500         $10.80         $0.59

Oxytocics                                      717          $9,891         $13.80             164          $2,178         $13.28         $0.51

Systemic contraceptives                     60,961      $2,747,237         $45.07          28,396      $1,265,663         $44.57         $0.49

Thyroid preparations                        31,866        $467,029         $14.66          19,505        $278,173         $14.26         $0.39
                  Page 41 – Herb Kuhn



Table 13b: Prescription Drugs—Total and Average Payments per Prescription by STC - continued

                                                                                                                        Average
                                                                          Average                           Total      Payment
                                         Number of            Total      Payment        Number of      Payments              per
                                           Affected   Payments for    per Affected    Nonaffected             for   Nonaffected     Difference
                                         Individual        Affected     Individual      Individual   Nonaffected      Individual   in Average
STC                                   Prescriptions     Individuals   Prescription   Prescriptions    Individuals   Prescription    Payments

 Other hypotensives                        161,684      $7,305,240         $45.18         100,886     $4,520,466         $44.81         $0.37

 Estrogens                                  17,171        $659,117         $38.39          10,393       $395,705         $38.07         $0.31

 Folic acid preparations                    12,143        $109,320          $9.00           7,356        $64,386          $8.75         $0.25

 Sulfonamides                               44,771        $618,001         $13.80          20,536       $281,400         $13.70         $0.10

 Sedative barbiturate                       11,037        $102,322          $9.27           8,249        $76,006          $9.21         $0.06

 Cold and cough preparations                12,720        $239,841         $18.86           8,648       $163,469         $18.90        ($0.05)

 Digitalis preparations                     11,761        $126,643         $10.77           8,729        $95,521         $10.94        ($0.17)

 Aldosterone antagonists                     6,199        $146,190         $23.58           3,485        $82,947         $23.80        ($0.22)

 Fungicides                                 78,930      $3,311,212         $41.95          44,335     $1,880,136         $42.41        ($0.46)

 Diagnostics                                15,915      $1,544,604         $97.05           8,757       $854,020         $97.52        ($0.47)

 Laxatives                                  17,866        $535,944         $30.00          11,083       $337,838         $30.48        ($0.48)

 Diabetic therapy                          116,675      $8,593,287         $73.65          67,569     $5,012,283         $74.18        ($0.53)

 Diuretics                                  84,463        $925,705         $10.96          55,272       $635,099         $11.49        ($0.53)

 Fat-soluble vitamins                        1,030         $53,528         $51.97             630        $33,106         $52.55        ($0.58)

 Penicillins                               160,904      $4,536,108         $28.19          80,285     $2,315,780         $28.84        ($0.65)

 Vaginal cleansers                              73          $1,887         $25.86              63         $1,671         $26.54        ($0.68)

 Trimethoprim                                  235          $5,366         $22.84             278         $6,584         $23.68        ($0.85)

 Psychostimulants-antidepressants          183,374     $14,949,970         $81.53         108,159     $8,925,752         $82.52        ($1.00)

 Urinary antibacterials                     19,881      $1,162,672         $58.48          12,707       $760,152         $59.82        ($1.34)

 Iodine therapy                                 39            $510         $13.10               3            $43         $14.54        ($1.44)

 Muscle relaxants                           62,576      $2,417,410         $38.63          28,167     $1,133,024         $40.23        ($1.59)
 Antispasmodic and anticholinergic
 agents                                     26,891      $1,554,991         $57.83          16,710       $993,784         $59.47        ($1.65)

 All other antiobesity preparations          2,112        $370,332        $175.35           1,214       $214,875        $177.00        ($1.65)

 Ophthalmic preparations                    49,085      $2,015,558         $41.06          25,842     $1,106,547         $42.82        ($1.76)

 Antiparkinson                              16,742        $654,760         $39.11          10,508       $435,737         $41.47        ($2.36)
 Antiulcer preparations/
 gastrointestinal preparations             110,200     $13,004,284        $118.01          76,748     $9,248,873        $120.51         (2.50)

 Lipotropics                                79,372      $7,912,658         $99.69          44,074     $4,538,132        $102.97        ($3.28)
                    Page 42 – Herb Kuhn



Table 13b: Prescription Drugs—Total and Average Payments per Prescription by STC - continued

                                                                                                                          Average
                                                                          Average                                        Payment
                                       Number of              Total      Payment         Number of            Total            per
                                         Affected     Payments for    per Affected     Nonaffected    Payments for    Nonaffected    Difference in
                                       Individual          Affected     Individual       Individual    Nonaffected      Individual        Average
STC                                 Prescriptions       Individuals   Prescription    Prescriptions     Individuals   Prescription      Payments

  Tuberculosis preparations                 1,716           $68,800         $40.09             623         $27,622         $44.34          ($4.24)

  Antiarthritics                          108,342        $4,635,871         $42.79          67,918      $3,214,408         $47.33          ($4.54)

  Anticoagulants                           43,896        $4,185,715         $95.36          29,079      $2,905,031         $99.90          ($4.55)

  Ataractics-tranquilizers                171,416      $21,923,521         $127.90          92,489     $12,260,774        $132.56          ($4.67)
  Other cardiovascular
  preparations                            126,469        $5,451,759         $43.11          78,728      $3,867,618         $49.13          ($6.02)

  Androgens                                   424           $63,009        $148.61             154         $24,912        $161.77        ($13.16)

  Cholesterol reducers                      1,127           $75,559         $67.04             739         $62,253         $84.24        ($17.19)

  Protein lysates                             909         $282,430         $310.70             772        $258,090        $334.31        ($23.61)
  Hematinics and blood cell
  stimulators                              48,779        $3,558,974         $72.96          29,461      $2,954,834        $100.30        ($27.34)

  Antivirals                               33,816      $22,044,737         $651.90          20,501     $15,625,395        $762.18       ($110.27)

  Streptomycins                             1,070         $465,778         $435.31             440        $248,213        $564.12       ($128.82)

  Hemostatics                                  32            $9,886        $308.96              10          $6,982        $698.28       ($389.32)

  Corticotropins                                9            $9,241      $1,026.87               4         $14,115      $3,528.87      ($2,502.00)

  Biologicals                                  402          $479,763      $1,193.44            221        $867,902      $3,927.16      ($2,733.72)
Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.


                    Top 30 National Drug Codes by Paid Amount for Affected Individual Prescription Drugs
                    Tables 14a and 14b on the following pages summarize the total and average payment by
                    the top 30 paid National Drug Codes (NDC) for affected individuals. These tables differ
                    by the unit of analysis. Table 14a lists the total average payments per beneficiary by
                    NDC. Since beneficiaries may have more than one prescription, they may be counted
                    under more than one NDC. Table 14b displays the total payment and average payment
                    per prescription by NDC. The top 30 NDCs were responsible for nearly a quarter of the
                    total payments for affected individuals in these two quarters.

                    In Table 14a, there were six NDCs for which the average payment per affected individual
                    was greater than that per nonaffected individual. Four of the six were greater by more
                    than $100. These four NDCs were Oxycontin and three different dosages of Synagis.
                    Oxycontin is a pain-relief medication and Synagis is used to prevent respiratory infection
                    in children under 2 years of age.
              Page 43 – Herb Kuhn


              There are 17 NDCs in Table 14b in which the average payment per prescription for
              affected individuals was greater than that for nonaffected individuals. Three of the NDCs
              had average payments greater than $20 and two were greater than $100. The NDCs with
              average payments greater than $100 were two dosages of Synagis.

Table 14a: Prescription Drugs—Total and Average Payments per Beneficiary by Top 30 Paid NDCs for Affected
Individuals
                                                                 Average
                                                                Payment                                           Average
                                  Number     Total Payments           per     Number of    Total Payments     Payment per    Difference in
                     Brand     of Affected      for Affected     Affected   Nonaffected    for Nonaffected    Nonaffected         Average
NDC                  Name      Individuals       Individuals   Individual    Individuals        Individuals     Individual      Payments

59011010710       Oxycontin           349        $1,378,370    $3,949.49             63          $208,613        $3,311.31        $638.17

60574411401         Synagis         1,189        $2,752,973    $2,315.37            900         $1,513,415       $1,681.57        $633.80

60574411201         Synagis           802        $1,250,183    $1,558.83            571          $655,473        $1,147.94        $410.89

60574411101         Synagis         1,092        $3,639,285    $3,332.68            974         $3,092,151       $3,174.69        $157.99

00310027210        Seroquel         2,001        $1,935,518      $967.28            909          $858,907         $944.89          $22.38

00310027460        Seroquel         1,341        $1,444,103    $1,076.89            651          $693,125        $1,064.71         $12.18

00074615160        Omnicef         11,698        $1,242,926      $106.25          4,326          $463,165         $107.07          ($0.81)

17314585102       Concerta          3,844        $1,186,740      $308.73          1,750          $542,888         $310.22          ($1.50)

00173045301         Flonase        20,798        $2,211,225      $106.32         10,369         $1,164,550        $112.31          ($5.99)

00456201001        Lexapro          7,987        $1,343,974      $168.27          3,769          $658,856         $174.81          ($6.54)

00006071131        Singulair        5,853        $1,102,521      $188.37          3,123          $611,472         $195.80          ($7.43)

63653117106           Plavix        3,119        $1,030,204      $330.30          1,294          $441,005         $340.81        ($10.51)

63402051224        Xopenex         12,253        $2,317,232      $189.12          5,054         $1,011,887        $200.22        ($11.10)

00085126401        Clarinex         7,772        $1,063,313      $136.81          3,937          $585,145         $148.63        ($11.81)

63653117101           Plavix        3,328        $1,158,567      $348.13          2,972         $1,074,462        $361.53        ($13.40)

54092038701      Adderall Xr        4,542        $1,451,733      $319.62          1,595          $532,327         $333.75        ($14.12)

00006027531        Singulair        6,765        $1,298,116      $191.89          3,378          $700,793         $207.46        ($15.57)
                  Depakote
00074712613              Er         2,627        $1,156,717      $440.32          1,148          $523,813         $456.28        ($15.96)

00006011731        Singulair        6,671        $1,310,515      $196.45          3,258          $695,908         $213.60         ($17.15)

00300304619        Prevacid         3,240        $1,188,632      $366.86          2,585          $993,023         $384.15         ($17.29)

00024542131         Ambien          5,203        $1,084,124      $208.37          2,343          $532,300         $227.19         ($18.82)
                     Advair
00173069500          Diskus         5,695        $1,217,404      $213.77          3,222          $756,086         $234.66         ($20.90)

50458032006       Risperdal         1,536        $1,075,143      $699.96            650          $470,094         $723.22         ($23.26)

00186198904       Pulmicort         5,653        $1,595,411      $282.22          1,611          $492,305         $305.59         ($23.37)
                 Page 44 – Herb Kuhn


Table 14a: Prescription Drugs—Total and Average Payments per Beneficiary by Top 30 Paid NDCs for Affected
Individuals - continued

                                                                       Average
                                                                      Payment                                              Average
                                      Number      Total Payments            per      Number of      Total Payments     Payment per    Difference in
                         Brand     of Affected       for Affected      Affected    Nonaffected      for Nonaffected    Nonaffected         Average
NDC                      Name      Individuals        Individuals    Individual     Individuals          Individuals     Individual      Payments

00186504031             Nexium          4,426          $1,547,884      $349.73           1,946            $739,901         $380.22        ($30.49)

00300304613            Prevacid        17,980          $6,340,772      $352.66          11,386           $4,369,935        $383.80        ($31.14)
                         Advair
00173069600              Diskus         6,088          $1,779,079      $292.23           2,551            $836,157         $327.78        ($35.55)

00186198804            Pulmicort        7,389          $1,925,185      $260.55           2,517            $746,958         $296.77        ($36.22)

00000000000             Missing        12,863          $2,685,129      $208.75           8,480           $2,164,421        $255.24        ($46.49)

60574411301             Synagis         1,533          $6,983,645     $4,555.54          1,337           $7,362,101       $5,506.43      ($950.89)

All other NDCs                      2,143,670        $204,517,773       $95.41       1,194,571        $118,014,147          $98.79          ($3.39)

  Total                             2,319,307       $262,214,395      $113.06      1,283,240          $153,505,380         $119.62          ($6.56)
  Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.




Table 14b: Prescription Drugs—Total and Average Payments by Affected Individual Top 30 NDCs by Prescription
                                                 Total Payments         Average                             Total          Average
                                    Affected                  for      Payment      Nonaffected     Payments for          Payment     Difference in
                     Brand        Individual            Affected             per      Individual     Nonaffected                per        Average
NDC                  Name      Prescriptions         Individuals    Prescription   Prescriptions      Individuals      Prescription      Payments

60574411401         Synagis            2,571          $2,752,973      $1,070.78             2,058     $1,513,415           $735.38         $335.40

60574411201         Synagis            1,341          $1,250,183        $932.28              920        $655,473           $712.47         $219.81

60574411101         Synagis            2,123          $3,639,285      $1,714.22             1,836     $3,092,151         $1,684.18           $30.04

00310027460        Seroquel            3,759          $1,444,103        $384.17             1,902       $693,125           $364.42           $19.75

00310027210        Seroquel            5,595          $1,935,518        $345.94             2,633       $858,907           $326.21           $19.73

00186198904       Pulmicort            8,257          $1,595,411        $193.22             2,803       $492,305           $175.63           $17.58

60574411301         Synagis            4,097          $6,983,645      $1,704.58             4,350     $7,362,101         $1,692.44           $12.14

63402051224        Xopenex            18,033          $2,317,232        $128.50             8,117     $1,011,887           $124.66            $3.84

00000000000         Missing           56,620          $2,685,129         $47.42           49,237      $2,164,421            $43.96            $3.46

54092038701      Adderall Xr          11,809          $1,451,733        $122.93             4,437       $532,327           $119.97            $2.96

00006071131        Singulair          11,188          $1,102,521         $98.54             6,293       $611,472            $97.17            $1.38

00024542131         Ambien            12,175          $1,084,124         $89.05             6,069       $532,300            $87.71            $1.34

00456201001        Lexapro            18,277          $1,343,974         $73.53             9,104       $658,856            $72.37            $1.16
                 Page 45 – Herb Kuhn


Table 14b: Prescription Drugs—Total and Average Payments by Affected Individual Top 30 NDCs by Prescription -
continued
                                                 Total Payments         Average                            Total       Average
                                    Affected                  for      Payment      Nonaffected    Payments for       Payment     Difference in
                     Brand        Individual            Affected             per      Individual    Nonaffected             per        Average
NDC                  Name      Prescriptions         Individuals    Prescription   Prescriptions     Individuals   Prescription      Payments

63653117106          Plavix           8,058           $1,030,204         $127.85          3,481        $441,005        $126.69           $1.16

00300304619        Prevacid           8,133           $1,188,632         $146.15          6,845        $993,023        $145.07           $1.08

00006027531        Singulair         13,102           $1,298,116          $99.08          7,128        $700,793         $98.32           $0.76

17314585102       Concerta           10,179           $1,186,740         $116.59          4,670        $542,888        $116.25           $0.34

00085126401        Clarinex          14,064           $1,063,313          $75.61          7,728        $585,145         $75.72          ($0.11)
                    Advair
00173069500         Diskus            9,675           $1,217,404         $125.83          6,003        $756,086        $125.95          ($0.12)

00173045301        Flonase           29,670           $2,211,225          $74.53         15,589      $1,164,550         $74.70          ($0.18)

63653117101          Plavix           9,208           $1,158,567         $125.82          8,523      $1,074,462        $126.07          ($0.24)

00074615160        Omnicef           13,564           $1,242,926          $91.63          5,038        $463,165         $91.93          ($0.30)
                  Depakote
00074712613             Er            7,699           $1,156,717         $150.24          3,473        $523,813        $150.82          ($0.58)
                    Advair
00173069600         Diskus           11,254           $1,779,079         $158.08          5,263        $836,157        $158.87          ($0.79)

50458032006       Risperdal           4,123           $1,075,143         $260.77          1,795        $470,094        $261.89          ($1.12)

00186504031         Nexium           10,665           $1,547,884         $145.14          5,030        $739,901        $147.10          ($1.96)

00006011731        Singulair         13,769           $1,310,515          $95.18          7,148        $695,908         $97.36          ($2.18)
All other
NDCs                              3,600,849         $214,162,100          $59.48      2,103,917    $123,339,652         $58.62           $0.85

Total                             3,919,857         $262,214,395          $66.89      2,291,390    $153,505,380         $66.99          ($0.10)
Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.


                 Top 100 Affected Individuals by Paid Amount for Prescription Drugs
                 Table 15 on the following page lists the number of prescriptions and total payments for
                 the top 100 affected individuals by allowed Medicaid payment. Total prescription
                 payments for the top 100 affected individuals ranged from $479,304 to $25,725, with a
                 median payment of $35,900. Fourteen of these affected individuals had payments of
                 greater than $80,000 in allowed Medicaid payments during the first two quarters of FY
                 2006, receiving from 8 to 94 prescriptions.
Page 46 – Herb Kuhn


          Table 15: Prescription Drugs—Top 100 Affected Individuals by
          Medicaid Paid Amount
                      Number of Affected Individual   Total Payments for Affected
           Rank                      Prescriptions                    Individuals
           1                                    12                      $479,304
           2                                    52                      $287,701
           3                                    12                      $286,659
           4                                    43                      $236,258
           5                                    23                      $195,944
           6                                    87                      $182,553
           7                                    78                      $168,740
           8                                     8                      $124,627
           9                                    94                       $97,702
           10                                   14                       $95,210
           11                                   31                       $92,701
           12                                   10                       $90,486
           13                                   52                       $80,723
           14                                   45                       $80,103
           15                                   13                       $71,333
           16                                   52                       $67,694
           17                                   17                       $66,621
           18                                  110                       $62,573
           19                                  138                       $61,510
           20                                   58                       $60,577
           21                                   10                       $60,303
           22                                   96                       $59,462
           23                                   85                       $59,093
           24                                  142                       $58,777
           25                                    8                       $56,961
           26                                  173                       $55,681
           27                                    3                       $51,923
           28                                   93                       $51,703
           29                                    2                       $51,058
           30                                    3                       $49,958
           31                                   10                       $49,128
           32                                    9                       $48,824
           33                                   56                       $48,553
           34                                   22                       $45,589
           35                                   35                       $43,467
           36                                   42                       $42,930
           37                                   14                       $42,453
           38                                   14                       $42,048
           39                                   31                       $41,627
           40                                   41                       $41,133
           41                                   66                       $40,564
           42                                   14                       $39,993
Page 47 – Herb Kuhn


          Table 15: Prescription Drugs—Top 100 Affected Individuals by
          Medicaid Paid Amount - continued
                      Number of Affected Individual   Total Payments for Affected
           Rank                      Prescriptions                    Individuals
           43                                   90                       $37,926
           44                                   37                       $37,015
           45                                  118                       $36,942
           46                                   59                       $36,942
           47                                   38                       $36,921
           48                                   18                       $36,892
           49                                   39                       $36,880
           50                                  124                       $36,021
           51                                   23                       $35,780
           52                                  106                       $35,774
           53                                   10                       $35,741
           54                                   37                       $35,598
           55                                   22                       $34,357
           56                                   52                       $33,531
           57                                   25                       $33,291
           58                                   38                       $33,184
           59                                   40                       $32,403
           60                                   25                       $32,056
           61                                  108                       $31,821
           62                                   86                       $31,301
           63                                   32                       $30,431
           64                                    5                       $30,030
           65                                   10                       $29,937
           66                                   35                       $29,913
           67                                   28                       $29,872
           68                                   81                       $29,778
           69                                   10                       $29,697
           70                                  398                       $29,354
           71                                   43                       $29,205
           72                                   74                       $29,000
           73                                  143                       $28,300
           74                                  144                       $28,136
           75                                   84                       $28,130
           76                                   34                       $27,981
           77                                  132                       $27,684
           78                                   41                       $27,578
           79                                   69                       $27,482
           80                                   14                       $27,441
           81                                   31                       $27,376
Page 48 – Herb Kuhn


           Table 15: Prescription Drugs—Top 100 Affected Individuals by
           Medicaid Paid Amount - continued
                         Number of Affected Individual              Total Payments for Affected
             Rank                       Prescriptions                               Individuals
             82                                      24                                  $27,321
             83                                      69                                  $27,099
             84                                      52                                  $27,048
             85                                      70                                  $26,964
             86                                      32                                  $26,958
             87                                      40                                  $26,935
             88                                      22                                  $26,893
             89                                      74                                  $26,868
             90                                      63                                  $26,745
             91                                      49                                  $26,740
             92                                     101                                  $26,682
             93                                     106                                  $26,514
             94                                      13                                  $26,357
             95                                      38                                  $26,352
             96                                      39                                  $26,042
             97                                     156                                  $25,946
             98                                      41                                  $25,863
             99                                      58                                  $25,850
             100                                     72                                  $25,725
           Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.


Top 100 Providers by Medicaid Paid Amount for Prescription Drugs
Table 16 on the following page lists the top 100 prescription drug providers by affected
individual Medicaid paid amount. For these 100 providers, the total affected individual
paid amount ranged from $626,789 to $3,198,903, with a median of $909,112. Forty-
eight had average payments per prescription greater for affected individuals than
nonaffected individuals. In five cases, the average allowed amount per prescription for
affected individuals was more than $100 higher than the average allowed amount per
prescription for nonaffected individuals. Of those five providers, one provided services
only to affected individuals, and the other four provided services predominately to
affected individuals.
       Page 49 – Herb Kuhn



Table 16: Prescription Drugs—Top 100 Providers by Total Affected Individual Payments


                                                     Average                                        Average
                    Number of            Total      Payment        Number of            Total   Payment per
Provider              Affected   Payments for    per Affected    Nonaffected    Payments for    Nonaffected     Difference
Identification      Individual        Affected     Individual      Individual    Nonaffected      Individual   in Average
Number           Prescriptions      Individual   Prescription   Prescriptions      Individual   Prescription    Payments

  0026313                 771        $839,748      $1,089.17             247         $60,505        $244.96       $844.21

  0027071                 339        $659,216      $1,944.59             100        $144,579       $1,445.79      $498.80

  0026341               2,668      $2,925,051      $1,096.35              86         $75,308        $875.67       $220.67

  0026040               6,629      $1,296,385        $195.56              80          $5,158         $64.48       $131.08

  0025673               5,906        $657,616        $111.35               0              $0          $0.00       $111.35

  0024918               1,053        $833,038        $791.11           1,558      $1,120,092        $718.93        $72.18

  0026317                 553      $1,406,269      $2,542.98             233        $579,061       $2,485.24       $57.74

  0026869              25,379      $2,129,859         $83.92             799         $40,090         $50.17        $33.75

  0029156                 645        $915,377      $1,419.19           1,051      $1,456,648       $1,385.96       $33.23

  0026392              16,387        $949,128         $57.92             174          $5,421         $31.16        $26.76

  0027093              10,346        $689,828         $66.68             295         $12,692         $43.02        $23.65

  0025311              10,428        $670,135         $64.26              52          $2,187         $42.05        $22.21

  0027186               9,035        $733,268         $81.16             344         $20,939         $60.87        $20.29

  0024085              12,362        $745,345         $60.29             158          $6,449         $40.82        $19.48

  0023446              20,842      $1,441,846         $69.18             750         $38,097         $50.80        $18.38

  0027409              11,945        $902,847         $75.58             186         $10,934         $58.78        $16.80

  0026709              10,922        $626,789         $57.39             143          $6,138         $42.92        $14.47

  0026849               8,968        $846,044         $94.34             432         $34,626         $80.15        $14.19

  0026234               9,318        $698,689         $74.98             293         $17,829         $60.85        $14.13

  0024163              14,454        $885,072         $61.23             154          $7,334         $47.63        $13.61

  0026137              22,749      $1,430,399         $62.88             510         $25,858         $50.70        $12.17

  0026988              14,089        $808,459         $57.38             238         $10,791         $45.34        $12.04

  0026462              23,641      $1,367,443         $57.84             322         $14,833         $46.07        $11.78

  0025866               9,528        $655,952         $68.84             587         $34,154         $58.18        $10.66

  0026891              12,081        $754,851         $62.48             128          $6,704         $52.37        $10.11
       Page 50 – Herb Kuhn



Table 16: Prescription Drugs—Top 100 Providers by Total Affected Individual Payments - continued


                                                     Average                                        Average
                    Number of            Total      Payment        Number of            Total   Payment per
Provider              Affected   Payments for    per Affected    Nonaffected    Payments for    Nonaffected     Difference
Identification      Individual        Affected     Individual      Individual    Nonaffected      Individual   in Average
Number           Prescriptions      Individual   Prescription   Prescriptions      Individual   Prescription    Payments

  0021691              17,259        $894,705         $51.84             389         $16,716         $42.97         $8.87

  0027514              29,784      $1,716,413         $57.63             277         $13,633         $49.22         $8.41

  0024066              28,884      $2,365,391         $81.89             317         $23,443         $73.95         $7.94

  0027410              15,003        $794,456         $52.95             173          $7,944         $45.92         $7.03

  0027092              38,103      $2,554,480         $67.04             894         $54,600         $61.07         $5.97

  0026598              15,505        $933,692         $60.22             410         $22,408         $54.65         $5.56

  0026179              24,532      $1,371,962         $55.93             245         $12,402         $50.62         $5.30

  0026181              11,294        $638,775         $56.56             126          $6,515         $51.70         $4.85

  0026371              16,169        $873,137         $54.00             160          $8,009         $50.05         $3.95

  0026594              15,441        $883,392         $57.21             223         $11,966         $53.66         $3.55

  0027211              18,459      $1,084,255         $58.74             201         $11,137         $55.41         $3.33

  0021845              10,796        $747,833         $69.27             264         $17,435         $66.04         $3.23

  0026580               9,761        $631,037         $64.65             172         $10,643         $61.88         $2.77

  0026905              14,568        $661,755         $45.43             338         $14,576         $43.13         $2.30

  0026373              12,731        $691,673         $54.33           3,020        $157,889         $52.28         $2.05

  0027106              13,433        $757,768         $56.41             350         $19,147         $54.71         $1.70

  0024197              34,783      $2,595,229         $74.61          16,409      $1,202,519         $73.28         $1.33

  0024283              23,962      $1,440,366         $60.11             452         $26,756         $59.20         $0.92

  0024133              15,473      $1,396,153         $90.23             294         $26,284         $89.40         $0.83

  0026931              10,400        $636,209         $61.17             584         $35,528         $60.84         $0.34

  0026983              21,813      $1,125,707         $51.61             392         $20,134         $51.36         $0.24

  0026147              28,328      $1,636,426         $57.77             323         $18,607         $57.61         $0.16

  0026795              12,570        $714,696         $56.86             143          $8,128         $56.84         $0.02

  0026259              14,150        $917,403         $64.83             347         $22,511         $64.87        ($0.04)

  0027436              20,155      $1,333,864         $66.18           6,739        $450,285         $66.82        ($0.64)

  0021521              12,690        $762,879         $60.12             276         $16,832         $60.98        ($0.87)

  0026133              13,065        $746,403         $57.13             186         $10,890         $58.55        ($1.42)
       Page 51 – Herb Kuhn



Table 16: Prescription Drugs—Top 100 Providers by Total Affected Individual Payments - continued


                                                     Average                                        Average
                    Number of            Total      Payment        Number of            Total   Payment per
Provider              Affected   Payments for    per Affected    Nonaffected    Payments for    Nonaffected     Difference
Identification      Individual        Affected     Individual      Individual    Nonaffected      Individual   in Average
Number           Prescriptions      Individual   Prescription   Prescriptions      Individual   Prescription    Payments

  0026413              10,370        $747,082         $72.04             120          $8,820         $73.50        ($1.46)

  0021636              12,151        $694,277         $57.14             167          $9,900         $59.28        ($2.15)

  0025519              12,566        $638,717         $50.83             819         $43,541         $53.16        ($2.33)

  0020766              16,340      $1,118,018         $68.42             683         $48,347         $70.79        ($2.36)

  0024268              15,558        $925,793         $59.51             320         $19,810         $61.91        ($2.40)

  0025958              12,936        $736,013         $56.90             133          $7,910         $59.48        ($2.58)

  0026850              22,279      $1,447,520         $64.97          31,034      $2,111,510         $68.04        ($3.07)

  0026583              46,015      $2,660,232         $57.81             232         $14,501         $62.50        ($4.69)

  0026772              27,029      $1,787,771         $66.14          39,451      $2,808,013         $71.18        ($5.03)

  0027169              21,633      $1,259,250         $58.21             528         $33,425         $63.31        ($5.10)

  0025191              28,343      $1,672,841         $59.02             344         $22,608         $65.72        ($6.70)

  0027404              17,862        $951,781         $53.29             258         $15,593         $60.44        ($7.15)

  0026149              12,726        $738,570         $58.04             152         $10,052         $66.13        ($8.10)

  0025557              10,342        $650,765         $62.92             128          $9,171         $71.65        ($8.72)

  0022605              15,504        $806,279         $52.00             530         $32,204         $60.76        ($8.76)

  0027481              11,291      $1,203,508        $106.59             217         $25,054        $115.46        ($8.87)

  0026920              11,767      $1,000,120         $84.99           1,505        $141,743         $94.18        ($9.19)

  0025365              23,436      $1,570,457         $67.01             292         $22,508         $77.08      ($10.07)

  0027133              12,077        $629,417         $52.12             821         $51,731         $63.01      ($10.89)

  0023378              12,191        $712,230         $58.42             175         $12,234         $69.91      ($11.49)

  0025366              25,123      $1,187,808         $47.28             454         $26,711         $58.83      ($11.55)

  0026617              13,430        $775,291         $57.73             132          $9,536         $72.24      ($14.52)

  0026331              12,726        $779,437         $61.25             171         $12,982         $75.92      ($14.67)

  0027115               6,046      $1,119,596        $185.18           6,265      $1,265,851        $202.05      ($16.87)

  0025477               9,280        $672,870         $72.51             114         $10,306         $90.41      ($17.90)

  0026893              13,636        $813,591         $59.66             121          $9,423         $77.88      ($18.21)

  0022871              21,502      $1,345,444         $62.57             621         $52,486         $84.52      ($21.95)
 Page 52 – Herb Kuhn



Table 16: Prescription Drugs - Top 100 Providers by Total Affected Individual Payments - continued


                                                        Average                                         Average
                     Number of             Total       Payment         Number of            Total   Payment per
Provider               Affected    Payments for     per Affected     Nonaffected    Payments for    Nonaffected     Difference
Identification       Individual         Affected      Individual       Individual    Nonaffected      Individual   in Average
Number            Prescriptions       Individual    Prescription    Prescriptions      Individual   Prescription    Payments

  0026875                17,862         $887,324          $49.68              216        $15,498         $71.75      ($22.07)

  0026180                11,803         $740,029          $62.70              159        $13,785         $86.70      ($24.00)

  0026069                19,405         $944,298          $48.66              226        $16,483         $72.93      ($24.27)

  0027078                17,274       $1,276,017          $73.87              270        $27,273        $101.01      ($27.14)

  0026166                10,442       $1,030,003          $98.64            1,104       $142,595        $129.16      ($30.52)

  0025161                19,439       $1,143,866          $58.84              361        $32,374         $89.68      ($30.83)

  0027141                10,556       $2,627,860        $248.94               379       $108,025        $285.03      ($36.08)

  0026819                10,449       $1,002,881          $95.98              382        $51,136        $133.86      ($37.89)

  0023351                23,071       $1,242,897          $53.87              886        $83,000         $93.68      ($39.81)

  0024291                14,063         $823,015          $58.52              243        $25,431        $104.65      ($46.13)

  0026364                 5,947         $719,704        $121.02               279        $47,231        $169.29      ($48.27)

  0026754                14,492         $859,054          $59.28              235        $29,063        $123.67      ($64.39)

  0021761                37,323       $2,912,026          $78.02            3,370       $482,999        $143.32      ($65.30)

  0027492                16,433         $917,738          $55.85              172        $21,878        $127.20      ($71.35)

  0026811                 2,561         $640,020        $249.91             1,318       $443,604        $336.57      ($86.66)

  0026738                 4,267       $3,198,903        $749.68             1,734     $1,624,045        $936.59     ($186.90)

  0027522                10,194         $658,018          $64.55           13,087     $3,561,396        $272.13     ($207.58)

  0026828                  2,668      $1,152,472        $431.96             1,586     $1,282,476        $808.62     ($376.66)

  0026093                13,822       $2,832,370        $204.92               275       $164,131        $596.84     ($391.92)

  0026669                  1,209      $1,089,770        $901.38                45        $61,170       $1,359.34    ($457.96)

  0027155                   328       $1,207,636       $3,681.82               98     $1,069,591     $10,914.20    ($7,232.38)
Source: OIG analysis of Louisiana Medicaid data, October 1, 2005–March 31, 2006.
Page 53 – Herb Kuhn


If you have any questions about this memorandum report, please do not hesitate to
contact me, or one of your staff may contact Claire Barnard, Director, External Affairs, at
(202) 619-1665 or through e-mail [Claire.Barnard@oig.hhs.gov]. To facilitate
identification, please refer to memorandum report number OEI-05-07-00300 in all
correspondence.
